<html>
<title> - THE STATE OF DIVERSITY AND INCLUSION IN EUROPE: RACE, RIGHTS, AND POLITICS</title>
<body><pre>[Joint House and Senate Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                  THE STATE OF DIVERSITY AND INCLUSION
                  
                  IN EUROPE: RACE, RIGHTS, AND POLITICS

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 11, 2019

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 116-1-6]
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                             


                       Available via www.csce.gov
                       
                       
                       
                            ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-828 PDF             WASHINGTON : 2021                        
                       
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

ALCEE L. HASTINGS, Florida              ROGER F. WICKER, Mississippi,
Chairman                                Co-Chairman
JOE WILSON, North Carolina              BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama             JOHN BOOZMAN, Arkansas
EMANUEL CLEAVER II, Missouri            CORY GARDNER, Colorado
STEVE COHEN, Tennessee                  MARCO RUBIO, Florida
BRIAN FITZPATRICK, Pennsylvania         JEANNE SHAHEEN, New Hampshire
RICHARD HUDSON, North Carolina          THOM TILLIS, North Carolina
GWEN MOORE, Wisconsin                   TOM UDALL, New Mexico
MARC VEASEY, Texas                      SHELDON WHITEHOUSE, Rhode Island

                                      


                     EXECUTIVE BRANCH COMMISSIONERS

                  Department of State, to be appointed
                Department of Commerce, to be appointed
                 Department of Defense, to be appointed



                                  [ii]
                                  
                  THE STATE OF DIVERSITY AND INCLUSION
                 IN EUROPE: RACE, RIGHTS, AND POLITICS

                              ----------                              

                           September 11, 2019
                             COMMISSIONERS

                                                                   Page
Hon. Gwen Moore, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     1

Hon. Alcee L. Hastings, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     2

Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    12

Hon. Emanuel Cleaver II, Commissioner, Commission on 
  Security and Cooperation in Europe.............................    14

Hon. Marc Veasey, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    16

                               WITNESSES

Dr. Pierrette Herzberger-Fofana, Member of the European 
  Parliament, Germany............................................     5

Romeo Franz, Member of the European Parliament, Germany..........     6

Evin Incir, Member of the European Parliament, Sweden............     7

Samira Rafaela, Member of the European Parliament, Netherlands...     8

Alfiaz Vaiya, Coordinator, Anti-Racism and Diversity Intergroup..    10

Domenica Ghidei Biidu, Vice-Chair, European Commission against 
  Racism and Intolerance.........................................    20

Irene Appiah, Councilor, Hamburg, Germany........................    23

Daniele Obono, Member of Parliament, France......................    25

Olivier Serva, Member of Parliament, France......................    28

                                APPENDIX

Prepared statement of Hon. Alcee L. Hastings.....................    36

Prepared statement of Hon. Benjamin L. Cardin....................    38

Joint prepared statement from Dr. Pierrette Herzberger-Fofana, 
  Romeo Franz, Evin Incir, and Samira Rafaela....................    40

Prepared statement of Domenica Ghidei Biidu......................    43

Prepared statement of Irene Appiah...............................    46


                  THE STATE OF DIVERSITY AND INCLUSION

                 IN EUROPE: RACE, RIGHTS, AND POLITICS

                              ----------                              


                           September 11, 2019

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 10:14 a.m. in Room 210, Cannon 
House Office Building, Washington, DC, Hon. Gwen Moore, 
Commissioner, Commission on Security and Cooperation in Europe, 

presiding.

    Commissioners present: Hon. Gwen Moore, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. Alcee L. 
Hastings, Chairman, Commission on Security and Cooperation in 
Europe; Hon. Steve Cohen, Commissioner, Commission on Security 
and Cooperation in Europe; Hon. Emanuel Cleaver II, 
Commissioner, Commission on Security and Cooperation in Europe; 
and Hon. Marc Veasey, Commissioner, Commission on Security and 
Cooperation in Europe.

    Witnesses present:  Dr. Pierrette Herzberger-Fofana, Member 
of the European Parliament, Germany; Romeo Franz, Member of the 
European Parliament, Germany; Evin Incir, Member of the 
European Parliament, Sweden; Samira Rafaela, Member of the 
European Parliament, Netherlands; Alfiaz Vaiya, Coordinator, 
Anti-Racism and Diversity Intergroup; Domenica Ghidei Biidu, 
Vice-Chair, European Commission against Racism and Intolerance; 
Irene Appiah, Councilor, Hamburg, Germany; Daniele Obono, 
Member of Parliament, France; and Olivier Serva, Member of 
Parliament, France.

   HON. GWEN MOORE, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Ms. Moore. Good morning.
    Mr. Hastings. Good morning, everybody.
    Ms. Moore. We're Helsinki Commissioners, and we really want 
to thank our witnesses that we had an opportunity briefly in 
the back to learn something about and learn what their 
priorities are.
    The name of this hearing today is ``The State of Diversity 
and Inclusion in Europe: Race, Rights, and Politics.'' It's an 
honor to serve the global community as a member of this 
Helsinki Commission, and I'm honored today to be joined today 
to assess the state of diversity and inclusion in Europe.
    I have people who have joined me here today.
    First of all, I introduce my good friend Emanuel Cleaver 
from Kansas City, Missouri, who is a member of the Helsinki 
Commission but also a member of the Financial Services 
Committee. He's the chairman of the subcommittee that deals 
with the International Monetary Fund, and with the World Bank. 
And so it is very, very appropriate that he's been appointed to 
the Helsinki Commission to carry the work of diversity and 
inclusion into that conversation.
    I am so pleased on the left here to be with one of our 
longest-serving members of the Helsinki Commission, the former 
President of the OSCE Parliamentary Assembly--I mean the whole 
57-member body of the OSCE PA, the Organization for Security 
and Cooperation in Europe PA--my mentor, he's been a 
rapporteur, and certainly been a champion on the state of 
diversity and inclusion in Europe, race, and--long before it 
became a topic that is as hot as it is today. I just want him 
to say hello to us for a moment before----
    Oh, and we've also been joined by Steve Cohen, a 
commissioner from Memphis, Tennessee. Great traveling partner, 
but also on our Judiciary Committee, very esteemed member of 
the Judiciary Committee. Certainly has been very involved on 
the topic of diversity, inclusion, and anti-Semitism, which is 
a really huge problem in Europe as well as other places in the 
world.
    So we have a full complement--even though you see only four 
of us sitting here, this is a full complement of members of the 
Helsinki Commission, that we really want to lean into this 
discussion. But I would be remiss if I didn't yield to Mr. 
Hastings for brief remarks.

 HON. ALCEE L. HASTINGS, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. Thank you very much, Madam Chair, and my 
remarks will be brief.
    I apologize to all of you for having other duties this 
morning. Someone says it's kind of hard to apologize for 
working, but the fact is that I do have other responsibilities.
    But addressing the issues of diversity and inclusion amidst 
the rising prejudice and xenophobic violence that we've seen 
both in Europe and in the United States and elsewhere around 
the world from far-right extremists, when I had the opportunity 
and privilege of serving as president of the Parliamentary 
Assembly, I didn't deem it robbery to begin formulation of the 
structure that gives rise to us being here today, and that is 
interparliamentary action particularly for people who live this 
experience of being discriminated against. And therefore, I'm 
more than pleased that you all are here and thankful that we 
have this opportunity. And my hope is that we will have many 
visits together, and my suggestion in modern times is that we 
begin using social media in a more active way so that we can 
stay in contact without having to get on those airplanes to 
cross the Atlantic and other areas.
    But thank you for being here. And thank you, Madam Chair, 
for presiding this morning.
    Ms. Moore. Thank you so much, Mr. Hastings, and we will 
carry on the work that you have started and inspired all of us 
to carry on.
    I can tell you as an African American--I think I speak for 
Mr. Cleaver, too; since I'm not going to yield to you at this 
moment, I'll speak for you--you know, who'd have thunk it that 
there were concerns about racism outside of America? We had 
become so focused on our counter-anti-Semitic and anti-racism 
here in the United States that Mr. Hastings engaged us on the 
global nature of this scourge, and we appreciate him for that.
    And today's hearing is so timely because it's taking place 
ahead of the OSCE's annual human rights meeting later this 
month, which includes a focus on how European and North 
American governments are responding to hate crimes and bias. 
But it's also taking place ahead of the European Union's first 
ever Anti-Racism and Diversity Week, on the heels of Roma Week, 
which happened earlier this year. And I'm so proud to have 
served as an honorary host last year of Europe's first ever 
People of African Descent Week, convened in the European 
Parliament, to honor the history and contributions of Europe's 
15 to 20 million strong black population on the occasion of the 
International Decade for the People of African Descent.
    Now, I am so pleased that the Helsinki Commission has been 
a supporter of those initiatives and to be joined here today by 
the new leadership of the European Parliament's Anti-Racism and 
Diversity Intergroup and other European leaders to discuss how 
these and other events will assist in shaping Europe's path 
forward in realizing an inclusive society. Here, in addition to 
our European hearing witnesses, we are also joined in our 
audience by other international delegates that we had a chance 
to chat with in the anteroom from Europe, from the Western 
Hemisphere, including the French parliamentarian Olivier Serva 
and the Spanish parliamentarian Rita Bosaho--and I'm so pleased 
that everyone here can be with us here today.
    This hearing today, in context, is taking place at a time 
when we are receiving numerous reports from Europe of hate 
crimes and acts of extremism, racial profiling in cities and at 
borders, and discrimination at work and in the schools. The 
OSCE has reported close to 6,000 hate crimes in Europe over the 
past year--6,000 just in the last year. A recent European 
parliamentary study concluded that people from ethnic or racial 
minorities in the EU experience higher risks of economic 
hardship, poorer-quality housing, residential segregation, 
unemployment, and assault. The individual impact of such 
disparities is quantifiable in lost earnings, between 1.8 
[billion euros] and 8 billion euros.
    Americans are also impacted by disparate treatment and 
related violence in Europe. For years we've received reports 
that our diverse military and diplomats serving in Europe, 
students studying abroad, and tourists have all been the 
targets of discrimination, from being refused service in 
restaurants, or in the worst cases being the tragic victims of 
hate crimes.
    So Europe, like the United States, is already diverse. And 
in a democracy, ethnicity, skin color, religion, gender--and I 
could go on--should not determine one's access to rights, 
protections, and opportunity. Yet, this is what we're seeing. 
And increasingly, citizens in our democracies are turning 
against one another and people from other places simply because 
they look, pray, love, or think differently than someone else. 
And it's critical that we reaffirm democratic values by 
challenging rising prejudice and violence with strategies for 
inclusion.
    And it's not just an American or European problem. Whether 
our countries could truly embrace diversity is a litmus test 
for our democracies and the transatlantic relationship. Brexit, 
counterterrorism cooperation, trade, migration, data use and 
protection--these are all transatlantic issues that ultimately 
impact all of us regardless of our differences. Ensuring that 
all of our voices are represented in policy decisions of these 
issues on both sides of the Atlantic are critical to show that 
our nations will move on. And together our nations can move 
forward toward a future in which diverse populations are 
celebrated, guaranteed human rights, and have an opportunity to 
participate fully in our societies. And so we're going to 
welcome your testimony.
    Are there any of our other commissioners that would like to 
make an opening statement? Does anybody have anything else to 
say? All right.
    So I want to turn this over to our expert witnesses and our 
panel to discuss the diverse populations in Europe. The EU 
anti-discrimination, diversity, and inclusion policy 
prescriptions, you are leading as co-presidents of the European 
Parliament Anti-
Racism [and] Diversity Intergroup.
    The Member of Parliament Dr. Pierrette Herzberger-Fofana 
from Germany is here with us today. She's the first woman of 
African descent elected as a member of the European Parliament 
for Germany, from the Green/EFA Party. She is the first Vice 
President of the Development Committee and a substitute member 
of the Committee on Women's Rights and Gender Equality. 
Welcome.
    We are so happy to have with us Romeo Franz, from Germany. 
Romeo Franz is the first Sinto from Germany elected to the 
European Parliament, and he is the first Vice-Chair of the 
Culture and Education Committee. Thank you for joining us.
    We have our Member of the European Parliament Evin Incir. 
She's a member of the European Parliament from Sweden of 
Kurdish heritage. She serves on the Committee on Civil 
Liberties, Justice, and Home Affairs, and on the Delegation to 
the EU-Turkey Joint Parliamentary Committee. Welcome here 
today, Evin.
    We have a very old lady, 30 years old--Samira Rafaela from 
the Netherlands. And she is a Member of the European Parliament 
from the Netherlands, and a member of the Committee on 
International Trade and the Committee on Women's Rights and 
Gender Equality. And she's also part of the EUROLAT delegation. 
Ms. Rafaela serves as first vice president and she's an alumni 
of the Transatlantic Inclusion Leaders Network co-founded by 
the Helsinki Commission. And we are so proud that she's joining 
us today in her new capacity, just elected, as a 
parliamentarian.
    Alfiaz Vaiya is the coordinator of the Anti-Racism and 
Diversity Intergroup, and he's going to join the panel to 
address any procedural questions that are related to the 
Intergroup. So we thank you for your expertise.
    We do have witness bios available so that you can delve 
further into the excellent background and qualifications of our 
witness[es].
    So this is our first panel, and so I am going to yield now 
to our first witness. And we're going to give you 5 minutes. 
We've learned here as parliamentarians that you can say an 
awful lot in 5 minutes, but we will make sure that every bit of 
your comments will be included in the record.
    So, Dr. Herzberger, could we hear from you? We'll hear from 
you.

    DR. PIERRETTE HERZBERGER-FOFANA, MEMBER OF THE EUROPEAN 
                      PARLIAMENT, GERMANY

    Dr. Herzberger-Fofana. So esteemed colleagues, ladies and 
gentlemen, it is my honor to be here with you and talk about 
the incredibly important topic of reparation, recognition, and 
justice. Europe and America alike were built off the backs of 
black men and women and, in the case of America, over the 
bodies of indigenous people. This year marks the 80th 
anniversary of the beginning of World War the Second, one of 
the darkest periods of European history, a time when hateful 
rhetoric and action went unchallenged, that resulted in the 
deaths of millions and millions of people.
    There were also many other victims of the Nazi regime. Non-
European victims, black, have suffered the wrath of the Nazis, 
nevertheless. In Erlangen, the city that I live in, in Germany, 
I wanted to start a debate about those victims, historic 
forgotten people, to gain a recognition for their plight, and 
justice, and for their memories. So in 2015, I founded the 
black history weeks and dedicate the first edition to Afro-
German Holocaust survivors. For the first time ever Theodor 
Michael, Marie Nejar, and Gert Schramm came together to share 
their experiences as black Germans living in the Third Reich.
    It was the first time that these three survivors 
participated together in such an event. Although they all lived 
in Germany, they had not had the opportunity to take part in 
such a conference together. Marie Nejar and Theodor Michael 
were among a group of young Afro-Germans recruited to play a 
role in racist propaganda films produced by the Nazi propaganda 
machine. Gert Schramm was imprisoned in a concentration camp 
until he was 15, when he was taken to Buchenwald camp, where he 
remained a year and a half. He was freed when the Americans 
came and liberate Buchenwald. It was on the 12 of April 1945. I 
had the pleasure to be with him that year, 2015, for the 
celebration. Gert Schramm died 2016, 1 year after.
    There are many more stories like these, but they are often 
left out of political debate about the Nazis and Holocaust, in 
the same way that Germany tends to ignore its colonial past. We 
owe more to our ancestors to allow their memories and their 
sacrifices to be erased from the common conscious. That is why 
I campaigned for Theodor Michael to be awarded the Order of 
Merit of the Federal Republic of Germany, the highest honor in 
the land, an award that he was presented with in January 2018 
by the Minister President of the land of Rhineland-North 
Westphalia.
    I also wrote to both the president and Chancellor Angela 
Merkel on the occasion of the 70th anniversary of the end of 
the World War II to request that they include mention of all of 
the African victims and other victims from outside of Europe 
who perished during the Holocaust. When I received a negative 
answer from the office of the president, I was disappointed, 
but not surprised. I don't hold out much hope for a positive 
response from the chancellor. The day of the memorial ceremony, 
on the 5th of May 2015, came. And I had heard nothing.
    Then at Dachau, the first concentration camp opened by the 
Nazis, Chancellor Angela Merkel said the following of its 
victims--may I say the quotation? ``There were men, women and 
children that came from all over Europe. They also came from 
many other parts of the world, from Asia as well as, and this 
is still little-known to the public, from parts of Africa, 
Congo, Senegal, and Eritrea. We commemorate the approximately 
1,040 people who died, not survived, this place,'' quotation 
ended.
    The next day I received a letter from her office thanking 
me for the information and stated that she would use it in her 
speech. Finally, we achieved official recognition for our 
brothers and sisters who perished at the hands of the Nazis. I 
continue to organize exhibitions, conferences, and awareness-
raising meetings dedicated to increasing the knowledge and 
recognition of Afro-Germans and the diaspora, because without 
recognition there can be no reparations.
    I have one wish. On Sunday--on Saturday I pay a visit to 
Michael Theodor--Theodor Michael is very, very sick. And I told 
him that I am going to say that here at the Congress. And my 
wish is maybe--I don't know, it's a wish but everybody can 
dream--that we send him a card, on the last days of Theodor 
Michael in the hospital in Koln, in Cologne.
    Thank you very much for your attention.
    Ms. Moore. Thank you. We're happy to hear from you now, Mr. 
Franz.

    ROMEO FRANZ, MEMBER OF THE EUROPEAN PARLIAMENT, GERMANY

    Mr. Franz. Dear Members of the Congress, distinguished 
colleagues and guests, I would like to express my deepest 
gratitude for the opportunity to be here today.
    Please allow me to say a few words about today's date. 
Eighteen years ago, many innocent people had to die because of 
the cowardly attacks. I will never forget these cruel images in 
my life. But this should reinforce our conviction to fight 
racism and xenophobia and radicalism and terrorism even more 
strongly together. This is what we owe those who died as well 
as their loved ones. We owe those who lost their lives, rest in 
peace.
    Europe has about 12 million Roma, the largest ethnic 
minority of the continent. Some 6.2 million live in the EU. And 
most of them hold the citizenship of an EU country. The others 
live mostly in the Balkan region. Our community encompasses 
diverse groups including Roma, Sinti, Kale, Manush, et cetera--
people with Romani background. It's broadest, and my preferred 
term, because it allows us to address all parts of the 
community and depicts the diversity of the people.
    Despite the fact that all EU countries have adopted anti-
discrimination legislation, the majority of Roma in the EU are 
victims of prejudice, social exclusion, and anti-gypsyism. This 
means, in numbers that are provided by the EU's fundamental 
rights agency, 80 percent of my people live below their 
country's poverty threshold. Every third Roma lives in housing 
without tap water. Ever third Roma child lives in a household 
where someone went to bed hungry at least once in the previous 
months. And 50 percent of Roma between the ages of 6 and 24 do 
not attend school. In summary, the largest ethnic minority 
continues to face intolerable discrimination and unequal access 
to vital services.
    The reasons for this--for the failures of EU policies so 
far are diverse. A central matter continues to be a history of 
anti-Ziganism, engraved in cultural expressions of majority 
society for the last 600 years, and institutionalized racism on 
all levels of government--regional, national, and European. 
Europe does not have a Roma problem, but a racism problem. The 
European institution, every EU country, has a giant 
responsibility to improve the living conditions and inclusion 
of the Roma. This spans over most policy fights, such as 
education, employment, healthcare, and housing. Europe was 
based on that fundamental belief that all people are born 
equal, regardless the color of the skin, religion, or 
ethnicity. And that is what must be defended and promoted by 
its leaders. This is what I am fighting for.
    Thanks a lot, and I look forward to answering your 
questions. Thank you very much.
    Ms. Moore. Thank you. Very compelling.
    We are happy to hear from you now.

     EVIN INCIR, MEMBER OF THE EUROPEAN PARLIAMENT, SWEDEN

    Ms. Incir. Thank you so much, Madam Chair. And thank you so 
much, Members of the Congress. As she said, my name is Evin 
Incir. I come from the Swedish Social Democratic Party. Right 
now I am serving as a member of the European Parliament, just 
since a few months back. And the issue of actually diversity 
and anti-racism has always followed me. That was actually also 
one of the reasons why I, myself, engaged in party politics to 
start out with, and then decided to take on public offices 
after a while.
    I myself [grew] up in one of the suburbs of Gothenburg, the 

second-biggest city in Sweden. And I saw how the situation of 
myself and my own friends were, and I saw also how the 
situation in the other parts of the city was. And I then 
decided, as a 14, 15 years old child back then, that I want to 
do something against it. I believe in party politics, 
unfortunately. And I think it's the same all over the world. 
Many people, many young people with immigrant backgrounds, in 
Europe but also in USA, do not feel like politics is actually--
people who are serving within the political sphere are 
representing them always.
    So I decided that I wanted to take on the challenge, and to 
do something to address the current situation. And this was 
2000-2001. But the situation has even become worse, if we look 
at many parts of Europe. And unfortunately, in my own country, 
Sweden, where we see a growing right-wing extremism, more 
specifically called the Sweden Democrats--and as you also most 
probably know the Sweden Democrat representatives were here 
in--were here in the U.S. and met with representatives of the 
Trump administration.
    That shows one important thing--and that is that even the 
right-wing extremist organizations have understood the 
importance of cooperation and have started to, within Europe, 
talk about something more called the pan-European nationalistic 
movement, and it is even getting broader and broader. And this 
is a signal, at least to me, that if they see the importance of 
cooperating over the national borders, it is important also for 
us to even understand that part more, and make sure that we, 
who believe in equal societies, and democratic societies, get 
together and challenge the ideology that they stand for. And 
that's an ideology that I would very much want to see decrease 
rather than increase in Europe and the U.S., and globally.
    So I look very much forward to continuing the dialog. And I 
also hope to strengthen the dialog between us in Europe and, of 
course, you here in the States for a better, more equal, and 
democratic world.
    Thank you very much.
    Ms. Moore. It's just so encouraging, Mr. Hastings, to see 
these young people emerging. You know that no matter what 
happens, the work is going to be carried on. That feistiness, 
we love it.
    And so we will continue on by now hearing from Rafaela, and 
congratulations to you too for just being elected to the EU. So 
you guys belong to the freshman class. You'll always be rabble 
rousing together. Okay, Ms. Rafaela, let's hear from you.

 SAMIRA RAFAELA, MEMBER OF THE EUROPEAN PARLIAMENT, NETHERLANDS

    Ms. Rafaela. We're definitely going to team up. We should, 
yes.
    Thank you very much, Madam Chair, and also to Members of 
Congress. I really appreciate being here. So thank you, again. 
And, yes, I just got elected to the European Parliament. And 
that has been really special to me, because since I was 16 
years old, I said, Well, if I'm going into politics, I will go 
into the European Parliament. And often people asked me the 
question, but why the European Parliament, not the national 
parliament?
    Well, first, the European Parliament, we make laws. And 
laws--when making law, it is extremely important that it 
happens inclusive, that we engage different communities in our 
society, that we ask them the question: What is--what is wrong 
in your community? What are the challenges? What do you want to 
be engaged in law?
    And the international context is so extremely important to 
use when it comes to raising these questions. And that is why I 
wanted to go into the European Parliament. But also because I 
have a very international identity myself. I grew up as a 
daughter from a woman who has Dutch and Caribbean roots, and 
Jewish roots. And my father is Ghanaian, Nigerian, and Muslim. 
So I grew up with the understanding that there is more than 
borders. But also, I grew up with the understanding that not 
everyone in this world gets equal opportunities and equal 
rights.
    So being in the European Parliament now I see how extremely 
important it is to raise the right questions when it comes to 
lawmaking. But I also see what happens when there's a lack of 
representation. And that is what I have experienced during my 
own campaign. I said, well, my campaign will be focused on very 
different groups, but I want the result that they will say in 
the end, Well, I felt heard. I felt you were talking for us. I 
felt like, okay, now I have the feeling that we are getting 
politicians that can understand what we are going through. And 
even though the European Parliament, while we have a bit more 
diversity, we do have a lack of representation when it comes to 
different communities in Europe. And I think that's a problem, 
with the rise of racism, with the rise of discrimination.
    Even in my own country we are dealing with a variety of 
challenges. I mean, we have politicians--actually a couple of 
years--we had the politicians saying, well, let's work on less 
Moroccans in our country. It is unbelievable that we have that 
in politics. And we need political leadership now in Europe 
saying: This is wrong. We need to end this. We need to counter 
it. We need to tackle it.
    So therefore, as a Member of the European Parliament, I 
will keep working, also being part of ARDI [Anti-Racism and 
Diversity Intergroup], on horizontal antidiscrimination 
legislation. But we also need to raise our voice. We also need 
to make sure that we think about tactics and strategies that 
make other people also aware of the situation, but also feel 
engaged in politics, and maybe they want to go into politics 
also to help us build on this critical mass we need in 
politics.
    So I'm in the committee now on international trade. I'm in 
the committee on social affairs and employment, and also on 
women's rights. And when it comes to international trade, it is 
so extremely important that we work, and we build on these 
agreements that make sure that trade can also be used for 
having peace in the world. And I am worried now about how it's 
going between the USA and between Europe, for example. We need 
to work on the agreements that make us better. We need to work 
on the agreements that foster sustainability and peace by these 
trade agreements.
    But also when it comes to employment, what about 
discrimination in the work force? What about equal 
opportunities for youth? We are dealing now with youth 
unemployment in world and in Europe. And I've seen myself 
working for the police in the Netherlands, that when you don't 
work on social equality, you will get the challenges in 
security. I mean, that is why I studied radicalization and 
terrorism. I wanted to know what triggers people to radicalize. 
What triggers people to do these kinds of activities? And there 
are causes that have to do with social and economic inequality. 
So we really need to work on that.
    And then women's rights--also, in Europe, women are not 
always safe. We are still dealing with the position--the 
social, economic position of women, but also their safety. So, 
I think we have a lot to exchange with each other, but at the 
end I think that the whole--one of the main issues is the lack 
of representation. We need to work on representation in 
politics, because these are the voices that can explain what's 
going on in society. These are the voices that can make sure 
that lawmaking is inclusive, that our agreements are inclusive. 
And I am really worried about the lack of young people, about 
the lack of women, about people of color, LGBTI--people with 
LGBTI background.
    So we are not there. And I think that's something that we 
can speak about today, share our worries, but also speak about 
the strategies that we can develop together.
    Thank you.
    Ms. Moore. Thank you so much. And so we have a couple of 
remarks before we get into the Q&A period from Alfiaz Vaiya. 
He's the coordinator of the European Parliament Anti-Racism and 
Diversity Intergroup. Very important. He's going to help us 
negotiate this conversation. Just introduce yourself again.

ALFIAZ VAIYA, COORDINATOR, ANTI-RACISM AND DIVERSITY INTERGROUP

    Mr. Vaiya. Good morning. Thank you for inviting us to speak 
again. And it's my pleasure to speak alongside such great 
members of the European Parliament and especially who I think 
in the future will become the rising stars, and the people who 
carry this fight in the future.
    I think what's important to talk about is to put everything 
into context, what we're seeing in Europe. So we've had many of 
the different cases and incidents in Europe, but in the 28 EU 
member States, we see that far-right nationalist parties are 
now actually joining the government. So in a majority of the 28 
member States, we see far-right political parties actually in 
government as part of the coalition. Just in the past couple of 
weeks, we saw the threat in Italy where actually a far-right 
party and a far-right leader were actually in the possibility 
of becoming prime minister of Italy, which actually brings us 
back to the dark ages of Europe. And, his policies against 
Roma, against Muslims, against migrants, against women, against 
LGBTIQ people are very worrying.
    But what's even more worrying is how these far-right 
leaders in Europe are working with the current U.S. 
administration and other far-right political parties and 
leaders across the world. We see that in South America with 
Brazil. We see that in the Philippines. We see that in Europe. 
We see that in the United States. And that's why it's important 
for us to work transatlantically. It's why it's important that 
we bring our communities together to face this threat. As you 
said, the threat we face in Europe is not only limited to 
Europe, it's also happening in the U.S. We see--since this 
current administration has come to power--we see the threats to 
minorities.
    But what is even more worrying is we see how others--for 
example in 2016 in the U.S. presidential elections--how the 
Russians used foreign interference based on the polarization, 
how they pitted minorities online against each other. So, if we 
don't deal with the polarization, we also open ourselves up to 
the vulnerability foreign interference will play on that 
polarization.
    We've seen how the Russians have empowered in Europe both 
the far left and the far right. And we see how they're using 
that to cause divisions in our society. And that is something 
that we need to tackle. And that is why it's important for 
policymakers in Europe and the U.S. to wake up to the reality 
of racism, discrimination, and fascism, and why it's needed 
that we tackle it.
    And it's also--in that case, what we're seeing is not 
attacks on one community, but on all communities. Whether it's 
Jewish people, whether it's Muslims, whether it's LGBTI people, 
whether it's people who are Roma or black. And these 
communities have to come together.
    And that's why our role, as people working in policymaking, 
have to understand how we bring our communities together even 
if we have divisions. The shared threat is the same. It's the 
populism, it's the racism, it's the fascism. It may be specific 
to each individual community, but we have to understand that 
the threat is together.
    And we have to say something in Europe today that--I would 
say that both the left and the right has been complacent. And 
in some cases, it's not just the right that has empowered the 
populists and the racists. But we've also seen on the left how 
the left has copied some of the policies of the extreme far 
right, when it comes to migration, when it comes to minorities. 
We see right now in Denmark, a social democrat government, a 
center-left government, actually enacting policies on migration 
that are actually very right-wing. So we also have to 
understand that everyone from all political sides has a duty to 
combat this.
    And I would end here to say that in the transatlantic 
space, the key areas where we can work together are, of course, 
on discrimination, security, countering violent extremism and 
terrorism, migration, but also issues around employment. We can 
learn, and we can learn from colleagues in the U.S., but--
activities in the U.S. which seek to boost the chances of 
minority populations to access not only good quality education 
but to transition into employment.
    And what I would say to you today, as I've said many times 
before when I've been here, is that we need the congressional 
Foreign Affairs Committee and the Helsinki Commission to keep 
on pushing the State Department. In a time of cuts at the State 
Department, at a time where we're seeing the State Department 
sometimes even work with our opposition, the far right in 
Europe, we need Congress and the Senate to stand up and say: 
This is unacceptable. We need to actually empower the 
minorities in Europe instead of empowering the people who are 
against the minorities.
    And the final thing I would say, which is a bit more tricky 
for colleagues in the U.S., is the issue of online and hate 
speech online. Of course, in the U.S. you have a different 
perception on freedom of expression. But we believe--and we've 
worked at the European level with the big tech companies--
Facebook, Google, Microsoft, Twitter, Snapchat--to see how we 
can take down content within 24 hours that incites hatred. And 
we would like to support that to see how both working from 
Congress, the Senate, and the State Department, how you could 
support our efforts in Europe.
    Thank you.
    Ms. Moore. What a great panel. And I'm sure that we have 
more questions than we do time. But I want to yield now to one 
of--the Helsinki Commission is a bicameral, bipartisan 
commission, and so one of our senior members in the House is my 
good friend, Steve Cohen. And I would yield to him at this 
time.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you, Madam Chair. I don't know how that 
comes from bicameral, because we're all in the same cameral, in 
the House, and bipartisan--we're all Democrats. And while I 
don't look African American, I have the largest African 
American district in the United States, percentagewise. So I 
represent African Americans, and I understand the plight of 
African Americans. And I'm Jewish, so I understand the plight 
of Jews. But I don't have to be a Jew, and I don't have to have 
an African American district to understand the Roma and other 
discrimination, women, that goes on around the world.
    The chair was quite positive and uplifting when she heard 
from the representative from the Netherlands and said, Oh, I'm 
so thrilled to see that the young are here and carrying on and 
continuing the fight. And that was positive, and I commend you 
for that. I'm a little more droll than that, cynical maybe. But 
my thoughts were, it's still going on. And it's gone on since 
the start of mankind. And discrimination and hatred and 
intolerance and dividing people by race, and gender, and 
religion, and every other way imaginable has gone on for time 
immemorial.
    And as far as the Jewish situation in Europe, and Europe 
and its racism, the pogroms in Russia, Hitler and the 
concentration camps--and it goes back to Spain and the 
Inquisition.
    Relative to that, the United States has been pretty good to 
Jews. But we've got a lot of anti-Semitism here as well. And 
I've been in Hungary, and I know the situation there is not 
good. And I've been in Poland, and I know the situation there 
is not good. There are problems around the world. But back to 
the chair and her optimism--I commend each of you for taking on 
your role in politics and being involved, especially the two 
young ones here. They're not the squad. They're the duo, I 
guess. [Laughs.] But you've got a great mission. Carry it on 
and be strong.
    To Mr. Franz, let me ask you this. When I was in Hungary, I 
learned a lot about discrimination against the Roma. And I've 
seen it everywhere, and in the Balkans it's great. Are there 
any countries where it's better or worse in Europe? Is Roma 
discrimination pretty constant, or are there places that treat 
the Roma better and places that treat the Roma worse?
    Mr. Franz. Thank you for this question. I think we must say 
discrimination in Hungary is--so we have in Hungary a 
president, Orban. And the law is that when you are homeless, 
you go in jail. When you get social benefit and you don't worry 
for the community or the state, you get no social benefit. When 
you get no social benefit, you go homeless. When you go 
homeless, you go in jail.
    And then they have--they say, Okay, we have for the 
education for the Roma people, for the Roma children we have a 
program. And so they have segregation in education because in 
the past they say the Roma children are sick in the brain. And 
then they need special skills. And of course, now they go to 
special schools, Roma schools. And when they are 14 they leave 
the school and they must work. But in Hungary they are from 
poverty-affected people, and they get no work. They must work 
for the social benefit.
    And then you find it's not 100 percent, but I'd say 90 
percent maybe. In East Europe we have the problem that more 
than 90 percent of our people of Romani background are without 
work. And you have the problem not only in East Europe, in 
Germany too. When you're looking for an education place, for a 
profession, or for a job, and you say you are a Sinto or a 
Sintesa or a Romani, then you have very less chance to take 
this job. It's really so. Or you have a chance to--and there's 
a chance to--wie sagt man verstecken?
    Dr. Herzberger-Fofana. Hide.
    Mr. Franz. To hide your ethnicity. Then you have a chance. 
And that's----
    Mr. Cohen. But I understand there's a problem, and you've 
described it well. But is it--are there certain countries that 
deal with it better and are more accepting and tolerant than 
others? And are there the worst? Give me the best two places 
for a Roma to live and have an opportunity, and the worst two.
    Mr. Franz. My experience is Eastern Europe, Romania, 
Bulgaria, and this country it's very, very, very bad situation. 
And I think when I was in Germany or the Netherlands, it's much 
better. But when we have the studies in these countries in 
Germany too, the last studies was more than 50 percent of the 
German was asked about Sinti and Roma. They say, we don't like 
Sinti and Roma. They must--you must kick them out from the 
land. And we must know that my family lived more than 600 years 
in Germany. And we have a big problem too. We must change now 
the narratives in Europe.
    I have seen this, that most people, or when we go to Europe 
in the policy, they speak from a Roma problem, Sinti problem, 
refugee problem. And I say no. That's a mistake. We have no 
Roma, Sinti, or refugee, or migrant problem. We have a racism 
problem in our policy and our--in the majority. That's really, 
really important to change the narratives. And then you can 
change your focus. And all the--all the strategies, what we 
have in the past, was paternalistic in strategies. The affected 
people were never a part of the conception. They don't--this 
was never an equal partnership.
    And then now, it was the past--in the early past--we had 
the Roma strategy. Now at the end, the evaluations shows they 
failed. And why? Paternalistic approaches. The affected people 
was only victims. And that--I think that we must change. No 
paternalistic approaches. And we must take this affected people 
from anti-gypsyism, as an equal partner to participate--an 
equal partner. And I'm saying--to your question--I'm saying in 
East Europe we have very bad situation. But it was in the early 
past also Italy too. Salvini was there, and he wants ethnical 
data from Sinti and Roma, like the Nazis too.
    Mr. Cohen. Let me ask you--because I understand what you're 
saying--the Roma and the Jews have often been what's called the 
canary in the coal mine. They first experience it, and it's a 
sign that there's racism coming, because they're often the 
first to be discriminated against. In Germany I read yesterday, 
and I hope it was inaccurate but I suspect it was not, that a 
man was named a mayor who's a neo-Nazi somewhere--I think it 
was near Dresden? I forget where.
    How did that come to pass, a neo-Nazi appointed mayor? And 
is that a sign of a problem?
    Mr. Franz. This is in a country, Hesse--called Hesse. And 
it's in a little village. And they have--the people on this 
little council was not there. And he was elected, the Nazi was, 
yes. But----
    Mr. Cohen. Elected by the council?
    Mr. Franz. Yes.
    Mr. Cohen. So just a small group of people?
    Mr. Franz. But now--but now they see that the media comes 
and sees it and now they're saying, Ah, we must take it from 
this place. So now they want to do this. But that your--that 
shows the problem that we have in Germany too. Now the last 
elections in Sachsen and Brandenburg shows that one party, the 
AfD [Alternative for Deutschland]--it's very far right--they 
have 27 percent from the people choice--this AfD. Twenty-seven 
percent. And it's--that's very--makes me very scared about the 
situation in east Germany.
    Mr. Cohen. Thank you. And I think my time is probably 
short, but I do want to comment that I appreciate what each of 
you are doing. And I have to say, and maybe I am being--
grouping people and that's wrong to do, but I was thinking back 
upon my experiences in Europe that a lot of women have been 
elected leaders in Europe. In Germany, and Lithuania, and other 
places have had women leaders. America hasn't quite done it. 
And most of the awful people have been white males. You got our 
president. You got your man in Poland. You got your man in 
Hungary. You got your guy in Brazil. The man in Turkey's not so 
wonderful. We got a problem.
    So, women, you all got to get to work. [Laughs.] Get some 
of those guys out of there. I yield back the balance of my 
time.
    Ms. Moore. Thank you, Steve. You can see why he has a--he 
has a majority African American district, and he gets, like, 85 
percent of the vote. So who--and I asked them why, and they 
said, because we know him.
    I am so happy. Before I yield to my colleague to my right, 
I'm so happy to introduce one of our newer Helsinki 
commissioners, Marc Veasey, from Fort Worth, Texas. He's a 
member of the Energy and Commerce Committee, which deals with 
health care and also with energy. And also a member of the 
small business committee. But before I yield to him, I want to 
yield to my colleague, Mr. Cleaver.

 HON. EMANUEL CLEAVER II, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cleaver. Thank you. Thank you, Madam Chair. And I think 
this has been----
    Ms. Moore. Member of the Financial Services Committee, 
again. Yes.
    Mr. Cleaver. I appreciate the fact that all of our guests 
have been kind enough to come and perhaps even give us some 
direction.
    I don't know if any of us can go right to this--to the 
moment that we started experiencing this new--well, it's new 
for this era--explosion of intolerance that is not only rising 
in Europe, it's almost like it's contagious. And it has made 
its start on these shores. But one of my concerns--I mean, I 
don't know whether this is asking too much, but are there any 
things that you have seen, any of you, that could be used as a 
best practice in terms of reducing the intolerance and the 
division? Is there anything that you think would be an antidote 
for this poisonous atmosphere that has been created? Any or all 
of you.
    Ms. Rafaela. Thank you. I'll answer first. I right away 
think about my experience at the Dutch--at the Netherlands 
police. The Netherlands police is known for having community 
policing. And the essence of that is that you engage 
communities. That you literally go to communities, that you 
speak to them, that you raise the right questions. What are you 
dealing with? Would you like to come also to us? To see our 
practice? To see our work? And maybe we can think about 
solutions together.
    And I think, now being in politics myself, I noticed that 
having this grassroots tactic--so make sure that you are 
physical as a politician or as a police officer--but as a 
politician, and that you engage with communities. And not only 
being there, but also trying to make sure that the input that 
you get, that you bring that literally back to the table and 
make sure that you create proposals, resolutions, et cetera so 
that also the communities see that you really do something 
about it.
    And I think that's really necessary also to counter 
intolerance because, in that way, you also teach society why it 
is important to think about certain solutions, and why it is 
important to propose different kinds of resolutions. I think 
that when--if politicians, if people working with society are 
constantly not bringing the worries and thoughts of different 
communities back to the table, then you get this perception, 
this really strong perception of people thinking not being 
engaged. And I think that's--well, I've learned from how the 
police did that with the community policing. And that inspired 
me also partially in making sure that I'm a grassroots 
politician myself.
    Mr. Cleaver. Thank you.
    Ms. Moore. Thank you.
    Ms. Incir. Thank you so much. In addition to what my 
colleague said, I would like to highlight two things. The 
first--on a political level--the first is that I think that 
it's important that democratic parties actually understand the 
importance to cooperate with each other. I mean, in Sweden, for 
example--if I take my own country as an example--for the first 
time for a long time, the Social Democratic Party, my own 
party, the Green Party went together with the two liberal 
parties, the central party and the liberal party, and decided 
that, okay, in order to be able to not give more power or--and 
political influence in the hand of the Sweden Democrats, the 
right-wing extremist party, we need to cooperate over their 
blocs--so over the center-right and center-left blocs. So that 
was, I think, one important step to take in order to not give 
the extremists more influential power on policy.
    However, the most important, though, I would say, is to 
address the root causes. And the root cause is, from my 
perspective, is called inequality. Because if we look at how it 
looked in Europe in the last decades, and we look at just two 
decades back to 2008--sorry--one decade back to 2008-2009, when 
the economic crisis hit Europe pretty hard, that was what I 
would say, at least--even though, of course, it has been 
bubbling before that also. But the economic crisis gave power 
to these extremist organizations and parties to grow on. So 
what they started to do is to pit people with immigrant 
backgrounds and people with nonimmigrant backgrounds against 
each other.
    But not only that, they also--experience from my own 
country--is that they go to people who immigrated to Sweden 
during the 1950s, 1960s, and say: Look, you were a part of 
building up the society. The new immigrants are part of 
dismantling the society. So pitting even people with immigrant 
groups against each other and saying that the new people are 
destroying the society, and the money goes to them. So if they 
were not here, the health care would be better, the education 
would be better. But what they do not say--in 2018 when we had 
the national election, the Sweden Democrats voted in favor of 
the right-wing and the conservative budget, which meant 
lowering taxes after taxes after taxes. And, of course, if you 
lower taxes it means that you cannot either build up the 
welfare state that secures--that the elderly have good 
pensions, that children have good access to good education, 
that we all have good access to good and quality health care, 
and so on, and so on.
    So I think addressing the root causes is one of the best 
ways in the long term to make sure that these kinds of 
organizations and parties do not grow even stronger than they 
are doing right now. But the short term is also that the 
democratic parties instead of legitimizing these kind of 
forces, they should get together--the democratic parties--and 
make sure to find a way of cooperating.
    Thank you.
    Mr. Cleaver. Thank you.
    Ms. Moore. Great discussion. Great conversation.
    Before we introduce our last panel, we're going to hear 
from Marc Veasey. He has some questions of the panel.

  HON. MARC VEASEY, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Veasey. Madam Chair, thank you very much. And great to 
be here today to talk about this very important panel--these 
panelists, but then the questions that they're dealing with too 
I think are really timely, particularly considering everything 
that's going on around the world as we look for different ways 
that we can stabilize the world.
    And I wanted to ask you specifically about hate speech, 
because that can really be sort of a tricky topic. I was in 
France recently and someone talked about how in France, when 
people come to the country, they really want everyone to become 
French, right? That they very much value their culture there. 
So, when people come to that country, I was told, they put a 
very high value on everybody becoming French. And, when you 
take a country like Rwanda, for instance, that had terrible 
atrocities committed there, obviously back during the 1990s--
and of course, they have pretty much banned people talking 
about their ethnic background there. So you can't do that 
there. So they want everyone to be Rwandans.
    How do you have a society, especially in Western 
countries--how do you have a society in places like Germany and 
the Netherlands, that value free speech and value free 
expression, with--and also allow people to have different 
opinions on issues that may be controversial or maybe make 
people--well, maybe make people uncomfortable, and also may be 
considered hate speech? Like, how do you--how do you balance 
that?
    Because I know that we even have a hard time here. I mean, 
one of the things that our Constitution values is the fact that 
we have a constitution that protects speech that is unpopular, 
that makes people uncomfortable, here in the United States. The 
First Amendment was designed not for popular speech, but 
actually for speech that can really make people not necessarily 
feel good about the place that they're in. So do you have any 
thoughts on that, particularly with everything that's happening 
in Europe right now?
    Dr. Herzberger-Fofana. May I answer? We have in Germany 
what I find is much more terrible, that hate speech--how the 
political men now are speaking. I just--I give you some 
example. For example, the secretary--general secretary, he said 
once in an interview, it might be that Jerome Boateng--that 
some football star in Germany--his father is from Nigeria and 
his mother is a white German. And the general secretary said he 
might be a good footballer, but nobody wants him as a neighbor. 
Oh, for 3 weeks--3 weeks--on the second of August, the 
president of the Federal Association of Football said, in front 
of 2,000 people, we can stop all the problems, the climate 
problem, if we plant a lot of trees so the African people are 
stopped to make children in the night. It's terrible, something 
like that.
    The way how the political men, usually, today in Germany 
are speaking is--I find it is much more terrible--is very 
terrible. Because when you say that in the television, yes, 
somebody like the minister, president who said, for example, 
yes, when migrant people are coming here and they stay 3 years, 
and then they are Catholic, and they are serving in the church, 
you cannot spare them out--kick them out. And a lot of things 
like that. And I think, first of all, we have--as political, we 
who are in the Parliament--we have really to demand that they 
are--that the way how they are speaking is not acceptable. It's 
not acceptable that the new elected president of the 
Commission, the European Commission, Mrs. Von der Leyen, said, 
Oh, we have to protect the way of life of Europe. It means if 
you aren't European, you are a threat for the country. And 
those type of things are not--from my point--is not acceptable.
    That's why each time when somebody does something like 
that, I write an open letter and I publish them in the 
newspaper. And I think we have to increase the education and 
awareness of children. And I was a long--very, very long years 
I was a teacher in a high school. And I introduced at that time 
the week against racism, because we are--in Germany there's a 
problem. When you say, ``I am German,'' German is white, yes? 
If I say, ``I am a German political woman,'' everybody say, 
What, what, what? No.
    And we have to increase education. So the children now, who 
might be from origin from Asian, from Roma, from what you want, 
and you said you are German, we have the same value. And that 
value, you can give them in the school as a teacher. And I know 
what I am saying because I was very, very long years a teacher.
    And if you get the children now, the young people who are 
going to be the political leaders in the future, that racism is 
the worst thing for you, first. For you, yourself, for yourself 
is bad, but also for your society. And it's possible today that 
our society, the German society, is, how we say, a 
multicultural society. And to be German doesn't mean you are 
just white, and you have some ideas about other people. I think 
that's a problem for us in Germany.
    Hate speech is--I write that a lot of black women are 
targeted by very, very bad hate speeches. For myself, I didn't 
get--I must say, I didn't get. What I have, I was attacked from 
Nazi people during the campaign, a long time the campaign, I 
was attacked, yes. It was the Nazi people who wanted to spray 
on the eyes and so on. But I must say----
    Ms. Moore. You were physically attacked?
    Dr. Herzberger-Fofana. I was physically attacked. But I 
must say, really, that the people who were there to find them 
were shocked, because in our country, where I am living, we 
always said we are open. We are an open city and we are open by 
tradition, because in Erlangen, the first migrant people who 
came were the French people in the 16 years, with the Huguenot, 
yes? And that's why. It is possible.
    So we have to give a best practice. And best practice, 
education, yes? Second one, best practice, this education is 
not just to say, yes, today we are going to speak about racism. 
No, make it in the school. For example, I introduced about that 
time what we call is a school without racism and a school with 
courage. And hope that can make it in the European Parliament, 
that all the schools in Europe might be--are going to be 
schools without racism, schools with courage.
    It means that you involve all the children. The children 
are going to say, okay, we want to be a school without racism. 
We are going to commit ourselves and we make each year a panel, 
and we invite people. And so we are going to try to change our 
society, because the new society is a multicultural society, 
and it's possible that we live together. And our children--and 
our children have another perspective of the way of life in 
Europe, are not under threat a gain for everybody.
    Thanks.
    Ms. Moore. Thank you. This is just really great. Okay, 
we're going to hear from you and we're going to move on to our 
second panel. But, so--but you can weigh in.
    Mr. Vaiya. I think on the issue of freedom of speech, first 
of all, we're living in a bit of a hyperbole in the situation 
that there's a lot of reports about censorship and freedom of 
speech and hate speech. In the European--in many member States, 
the penal code and the jurisprudence is pretty clear on what 
constitutes incitement to hatred and hate speech. The IT 
companies--the major IT companies--have signed code of conducts 
which clearly stipulate what they should take down and what 
they can't take down. In Europe we do--have decided that while 
freedom of speech is something to be welcomed, it is not 
absolute--in Europe. And when it starts to become incitement to 
hatred, that's when we have to take action.
    And I think the best way to counter it--and this is a best 
practice--is when we're talking about changing the narrative. 
And it's a bit rich for me to say, working for the Anti-Racism 
Intergroup, to change the narrative, but we can't always be 
``anti.'' We have to start to look how we change the narrative 
into a more positive narrative. Europe is changing 
demographically, just like United States. Europe is becoming 
more multiracialized, right? The minorities getting out the 
vote, minorities becoming more integrated in terms of voting, 
in terms of representation, and so on. And so what we need to 
keep on talking about is not always just talking about the 
antiracism, the anti-this. What we need to start talking about 
is how we change the narrative into a positive narrative.
    Our social welfare states, our healthcare, pensions, 
everything relies on more migration to Europe because of an 
aging population. The demographics are changing. So, we know 
that in the end, we have to start a talk in that kind of 
narrative, the positive narrative. And that actually comes back 
to what I would end on here to talk about, is how do we work in 
an intersectional way, but how do we work with different groups 
coming together?
    So, where we have seen good and best practices, for 
example, is when the Jewish and the Roma community have come 
together in Europe to talk about the Holocaust and to take--to 
bring more attention to the Jewish--to the Roma victims of the 
Holocaust, but also to apply how what happened in the Holocaust 
affects modern-day life for Roma and Jewish people. How what 
we're seeing in Hungary, the attacks on civil liberties, on 
academic freedom, on civil society, on shrinking space. But 
also, as you say, on Jewish communities. George Soros has been 
attacked.
    These go back to what we saw in the Holocaust. The tactics, 
the campaigning. And the only way we can counter that is if we 
come together and we start to create a new narrative together. 
We don't let them--we don't let them divide us, but we bring 
our communities together and say, okay, we're going to work 
through the hard discussions. If you're Muslim and Jewish, 
we're going to try to have the conversation about Israel-
Palestine, but that shouldn't prevent us from working together 
as communities. We should see the bigger picture. The same 
thing with the black community in Europe. The same thing with 
the Roma community. The same thing with the LGBTI community. We 
need to overcome the differences and start to change the 
narrative to a more positive narrative, also looking at where 
Europe is going to end up in 2040.
    Let's talk about Europe, the vision of 2040. Just like the 
United States, we talk about the 2040 multiracialized society 
vision. That's how we should be thinking about it in Europe. 
Thank you.
    Ms. Rafaela. If I could add only one more thing.
    Ms. Moore. One more thing. Okay. Here we go. This is a 
really compelling conversation. We appreciate you flying all 
the way over here. So go on.
    Ms. Rafaela. I totally agree. We need to change the 
narrative. And that means that we need to bring in people that 
can either change that narrative and are allowed to speak up. 
But it's not easy. It's not easy when you are one of the first 
trying to change the narrative. But that doesn't mean you need 
to stop with that. So it is really important that the people 
that are coming in, trying to work on that narrative, trying to 
tell another story, trying to represent communities that are 
not in politics or in government enough now, that they feel 
supported. So it is extremely important that we--that we 
support. It doesn't mean that we do not need to speak up. But 
speaking up is really necessary. But it also comes with a lot 
of challenges, like also being attacked, being challenged. But 
we also need to make sure that these people are being 
protected.
    So otherwise, we do have the representation, but on the 
other hand not speaking up, or not feeling safe to do that.
    Ms. Moore. This is very, very great. We want to thank this 
panel. Uh-oh. I don't want to be unfair to our other guests, 
because we have a very great second panel here. They've 
traveled far as well. So we're going to invite our first panel 
to stick with us. And we're going to introduce our second panel 
here.
    We have Domenica Biidu of the Netherlands. She is vice 
chair of the European Commission against Racism and Intolerance 
and an international human rights expert.
    Irene Appiah serves as city councilor in Hamburg, Germany 
and has been a leader on Afro-German initiatives.
    We have MP Daniele Obono, who's a member of the French 
Parliament and a member of the Constitutional Laws, Legislation 
and General Administration Commission--Constitutional 
Commission of the National Assembly, as well as the European 
Affairs Commission, where she serves as bureau secretary and a 
member of the Overseas Territories Delegation.
    And last, but certainly not least, our Member of 
Parliament, Olivier Serva, who's the president of the 
Delegation of French Overseas Territories in the French 
Parliament.
    We look forward to your questions. I want to say to our 
first panel, I had many questions I wanted to ask you myself. 
But I really appreciated your participation. And, again, this 
conversation is just starting.
    [Off mic]--take this time while things are being set up to 
thank our Helsinki staff. The woman that you see putting the 
placards there is Dr. Thompson. And she is--she leads all of 
our efforts here. And she has a marvelous staff that works with 
her. And we appreciate Dr. Thompson's diligence. She is--she's 
here now, but she's been--what, you've been to Vienna. And 
she's a very hard worker.
    All right. We're going to get right into the second panel. 
And I'm not going to delay because time is waning. So let's get 
right to it. And Dominica Biidu of the Netherlands, let's start 
with you.

DOMENICA GHIDEI BIIDU, VICE-CHAIR, EUROPEAN COMMISSION AGAINST 
                     RACISM AND INTOLERANCE

    Ms. Biidu. Thank you very much for this invitation. It's an 
honor to be here, and to share my experience from the point of 
view of the European Commission against Racism and Intolerance 
[ECRI], as well as my own experience as a first-generation 
refugee from Eritrea coming to Europe as an accompanied minor 
and climbing to this--to this position. So even though in 
Europe we don't believe in the European dream, I every now and 
then say we should. And we create space.
    I would like to first start to explain what we do at the 
European Commission against Racism and Intolerance. So what we 
see, that the increasing xenophobic, and populism, and hate 
speech is persisting, as all the other colleagues have already 
said, concerning in Europe one of the most challenging. If 
anything, over the last 2 or 3 years, the problem has grown, 
possibly as a result of the multiple crises Europe has been 
facing during the several years now of austerity policy, 
migration on a scale that hasn't been seen in modern history, 
and the related challenges of integration and increasing number 
of terrorist attacks.
    People's fear and uncertainties have been instrumentalized 
by nationalistic and xenophobic movements. Racist insults and 
xenophobic hate speech has reached unprecedented levels and 
entered, in many cases, the political mainstream. The role of 
ECRI is of paramount importance. We have been created in 1993. 
We are celebrating our 25th anniversary, coming at the end of 
September, as an independent human rights monitoring body 
within the Council of Europe. We are entrusted with the task of 
combating racism, racial discrimination and xenophobia, anti-
Semitism, and intolerance from the perspective of the 
protection of human rights.
    We are composed of 47 independent experts, one from each 
member State of the Council of Europe. So it's not just the 
U.N.--[laughs]--it's not just the EU, but we are 47 member 
States. And we have close collaboration with the OSCE in our 
monitoring work. And we refer--cross refer on our--on each 
other's work. So each government proposed a member--so all 
members come together three times a year in our sessions. Our 
work consists of country monitoring and work on general themes 
for developing so-called general policy recommendations [GPR]. 
And we work with civil society.
    So, just also referring to the question which was stated a 
while ago, one of our main issues is addressing hate speech and 
hate-motived violence, and also affecting the quality and 
access to rights, and integration and inclusion.
    We have adopted a general policy recommendation, number 16, 
dealing on hate speech. That puts at various finding and 
recommendation from countries visits an overall cohesive frame 
to provide advice on the various sectors, such as what we can 
do to combat racism in employment, education, sport, and 
policy. So in all our work, when we do country monitoring we 
look at the variety of situations in the different countries.
    So, coming to hate speech, it's our general policy 
recommendation number 16 has the definition we are using, is 
that the significance is the advocacy promoting the assignment 
of any forms of denigration, hatred, or vilification of a 
person or group based on personal characteristics or status, as 
well as harassment, insults, negative stereotyping, 
stigmatization, or a threat on that basis. So that's the 
definition.
    The forms of expression that incite are likely to incite 
acts of violence, intimidation, hostility, or discrimination on 
race, color, language, religion, belief, nationality, and 
national ethnic origin and descent. However, this is not an 
exhaustive list of personal characteristics. For example, ECRI 
considers sexual orientation also as a ground which will be 
covered within this definition of protecting and combating hate 
speech.
    So it's very important, the work we do. And what we need 
from the members, we are always stressing on it when we are 
doing our monitoring work, is to ensure that we have robust 
legislation in place to tackle discrimination at the 
constitutional level, and civil, administrative law, and 
criminal levels as well to apply legislation consistently and 
systematically. So that's a main thing we are stressing. We'd 
like also to ensure that independent equality bodies exist and 
function properly to promote equality and prevent 
discrimination, support people exposed to discrimination and 
intolerance, and promote diversity and good relations between 
persons belonging to different groups in society.
    So here is where the intersectionality comes, and also the 
importance that equality body not only do this work, but they 
are also practicing what they preach. So inclusion within their 
work and framework, we see that as a very important additional 
thing when we are doing our monitoring work. We need to 
establish diversity, equity, and inclusion strategy policies, 
ensuring full access to basic rights such as education, 
employment, health and housing, as well as language and 
integration courses, acquisition of legal status, participation 
in public life, and family reunification.
    We need to recognize that integration of migrants is a two-
way process. But the emphasis by the state should move from 
integration to inclusion. Inclusion underlies the need for 
society not only to facilitate adoption of the migrants into 
society, but rather also for society to be changed in order to 
be able to fully accept and include the person. This can be, 
for example, facilitated by tolerance programs and also for 
intercultural awareness raising.
    A friend of mine, she has created what she calls a ``Keti 
Koti'' [ph] table in which it's in realm of the commemoration 
of the abolishment of slavery in the Netherlands, and how we 
need to heal. And also in our daily life, really creating 
cohesive society where we are really meeting each other and 
going beyond the pain we have experienced. But that shouldn't 
be an excuse not to work together. So it means that not only on 
the policy level, but we are working together day to day in 
creating society.
    So when you'd ask us, how can the U.S. help Europe in going 
forward to create inclusive societies, I'm very happy we are 
having this kind of encounter we are having today. Even though 
we acknowledge the dark side of our histories, as Europe, as 
you have said, is a colonial--it's colonialist past, it's 
slavery past, and also the dark side of the U.S.--we 
acknowledge that, like the migration and integration, for 
example, the internment of Japanese American, the genocide of 
native population and segregation laws and policies. But we are 
also at the same time inspired by the American resilience, and 
the opportunities which have made it possible to create a 
diverse country, and also opportunities which made it possible 
to create notable successes in common living and cultural 
diversity. So you are also our role models.
    These must be preserved and further flourished with good 
examples. And we recognize that the U.S. is a partner and peer 
in our continued effort to combat racism and intolerance. And 
we would like to urge the state to engage in counter-populistic 
rhetoric, as you have asked what can be done against hate 
speech. So counter-rhetoric is a very important instrument 
which can be used. Another thing is to foster constructive and 
peaceful relationships between the Western world and the Muslim 
countries, and between Muslim countries and Israel, because 
that's the root cause which is really forming so much trouble.
    We need also, and really recommend, to create guidelines 
for practices to combat discrimination and intolerance, like, 
for example, our own GPR on combating intolerance and 
discrimination against Muslim, our GPR number 9, the fight 
against anti-Semitism, and our GPR 1916, safeguarding irregular 
present migration from discrimination. So even a person, if 
irregularly present in a country, doesn't mean that it's not a 
human person and is protected with human rights. And as the 
last thing I would like to recommend is also creating 
structures to combat hate speech, as I said, our GPR number 15.
    I would like to conclude by saying that it would be very 
important, if it's possible, that the U.S. also seek an 
observer status in the plenary meeting of us, of ECRI. That 
would be an opportunity to deepen our transatlantic 
relationship and cooperation.
    Thank you very much.
    Ms. Moore. Thank you so much. And please take note, our 
time is wasting, and I'm a very bad chair because I'm so 
excited about you all being here that I'm not really strictly 
enforcing the time limits, But we do want to hear from 
everywhere.
    So, Ms. Appiah, guten tag. Welcome. She's a city councilor 
in Hamburg, Germany. We're happy to hear from you.

           IRENE APPIAH, COUNCILOR, HAMBURG, GERMANY

    Ms. Appiah. Thanks for having me. Dear Members of Congress, 
I am deeply honored to receive this invitation to speak to you 
today and give you a small insight of being an African German 
political leader, born and raised in Hamburg. My name correctly 
pronounced is Irene Appiah.
    Ms. Moore. Appiah.
    Ms. Appiah. Appiah, coming from Ghana, originally. I'm 
newly elected, since May. And I became the first black 
councilor in a local district of a city called Hamburg, Hamburg 
City. According to German statistics, citizens with African 
nationality hold approximately 5.1 percent--that's 511,000 
people--of the total German population. Our statistic in 
Hamburg proves that out of 46,000 registered Africans, two-
third hold a German passport. In addition, from what research I 
could find, at least 15 percent are citizens with undocumented 
status.
    But still, people of color [POCs], mostly Africans, Roma, 
and Muslims, are confronted with prejudice and discrimination. 
With that being said, I would like to concentrate on the 
timeframe since the U.N. Decade for People of African Descent 
has unfolded its effect. We have this word in German, 
``existenzangst.''
    Ms. Moore. I saw that.
    Ms. Appiah. It is a little bit difficult to translate into 
English. However, I'm going to try. It's this fear of 
disappearing, this existential sort of social anxiety that has 
taken over like a virus of the mind. Existenzangst has flamed 
the fires of xenophobic violence, discrimination and abuse 
throughout all of society. Attacks, which had stopped around 
the early 2000s, because of the recent upsurge in immigration 
settlement, we are now having a return of xenophobically 
motivated attacks, like we had in the early 1980s and 1990s, 
caused by hatred and ignorance, and unresolved issues that 
remain, but you don't really have reason for the increasing 
number of neo-Nazi groups who feel comfortable in verbalizing 
their ideology, new tone of misanthropic expression in 
politics--which is being reflected in rules--in some rules and 
regulation, and during current elections.
    On a positive note, the number of parliamentarians of 
African descent have doubled, in some cases tripled, taking 
seats on all political levels. Africans are more likely to be 
actively included in committee bodies, unions, and boards. 
Activists are organizing themselves and joining forces to push 
diversity interests. Religious institutions, with their 
significant numbers of members, are the--[inaudible]--
associations who need support in self-organizational efforts. 
Many religious leaders are unaware of the potential ecumenical 
public-private partnership with local, state, and federal 
government entities.
    The average fellow citizen is slowly feeling represented. 
Our demands, our interests, and our needs are becoming more 
visible and, in some cases, even recognized. I became 
politically active in 2012 and have always addressed 
discrimination against African citizens. In 2014, when we won 
our district election--me missing out on a seat by 25 votes--I 
was still asking to phrase a paragraph for the coalition 
agreement, which set a focus on the African community living 
within that municipality. For the first time in Hamburg's 
history, our African community became visible in political 
matters. The focus was set for 5 years, and reflected on the 
matters of youth, social, labor, and public housing.
    I then founded a working group for African Germans, mostly 
of democrats, but also allowing no party members to participate 
and push the political matter further. Another positive light 
of the governmental action is based on having our first African 
representative, Dr. Diaby Karamba, in federal parliament. In 
his awareness of the U.N. decade reference, he influenced the 
federal coalition contract by setting cultural heritage, 
colonialism, escape and expulsion on the federal agenda, making 
it the task for all cultural authorities in the country to 
develop measurements for recommendations.
    Following, the cultural authority in Hamburg is currently 
developing new procedures for the recognition of colonialism 
within their field. The authorities have installed an advisory 
board, including the expertise of individuals and association 
members with African heritage and POCs. The existence of the 
U.N. Decade of People of African Descent and its fruitful 
network is helping to create more awareness for issues and 
personalities of minorities in our society.
    A good example is the promotion of Representative Aminata 
Toure, by becoming vice president of state parliament--the 
first time in Germany's history to place a person of African 
heritage to such a high position. The charter helps establish 
more activities and political organizational groups; more 
empowerment workshops and political debates have been 
initiated.
    So my recommendations to the commission would be, make the 
impact of the U.N. charter even more sustainable. I believe it 
is necessary that all state parties who signed the contract of 
the High Commission of Human Rights must declare a commitment 
to take measurements in case disadvantaging gaps have been 
indicated by the U.N. expert working group.
    I forgot one thing about the educational part--children and 
youth face discrimination at early ages in kindergarten, 
schools, in vocational trainings, and university. There is a 
tendency to quickly sort out schoolboys and categorize them as 
children with special educational needs. And what I do at the 
Ministry of Education--that's where I work when I'm not in 
politics--I develop intercultural learning action plans for 
schools. My observation is the majority of teachers and 
pedagogues are not prepared in their field of studies to handle 
the diversity of their students. Most of them lack social and 
intercultural competencies. They lack the skill to include 
diversity in their classrooms. So there's urgently needed to be 
done on that field too.
    Okay. In order to have effective measurements, the state 
must provide statistical data of minority groups, and make us 
of the existing competencies of the African diaspora. Equity of 
minority groups can only succeed if minority councils are 
embodied to ensure inclusion in various boards, bodies, and 
institutions--especially on boards of chambers of commerce, 
financial institutions, boards of media houses. Minority 
councils, therefore, will need funds to build up in order to 
deal with the competitive standards and structure.
    Ms. Moore. I'm going to ask you to wrap up, though. 
[Laughter.]
    Ms. Appiah. The High Commission must either involve U.N. 
prosecutor in trials abroad or take on these cases to the 
European Court of Human Rights, because we have a lot of 
cases--unresolved cases where it's clear that the minority is 
not being served. Minority groups need support to build and own 
a media network with a transatlantic connection. I thank----
    Ms. Moore. I've been taking copious notes, really. I'm sure 
you have so much more to share.
    Ms. Appiah. Yes.
    Ms. Moore. But I took notes. And I am so happy now to have 
MP Daniele Obono, a member of the French Parliament. Bonjour.

          DANIELE OBONO, MEMBER OF PARLIAMENT, FRANCE

    Ms. Obono. Bonjour. Thank you very much.
    Ms. Moore. The best of my French and German today. 
[Laughter.] The very best.
    Ms. Obono. That's the best beginning, at least.
    Thank you very much for having me--for having us today. I'm 
the first-time--a first-time member of Parliament in France and 
a proud representative of the 17th constituency, electoral 
district in Paris. It's comprised part of the 18th and 19th 
District of Paris in the northeast.
    It's a very beautiful place. Historically, it's a working-
class and migrants area. It encompasses two of the poorest 
neighborhoods in Paris with an overrepresentation of persons 
with few diplomas, large families, and single-parent families. 
Seven out of ten households live in public housing and the 
poverty rate is 31 percent, double as much as the general rate 
in the city.
    It faces a lot of challenges, either--whether it's 
gentrification or homelessness crisis. There's also a beginning 
of crack epidemic and the way the state have failed migrant 
people, who have been abandoned in the district and left to die 
into the streets.
    It's also one of the most creative, vivid, and human parts 
of Paris and I would cordially invite you to come and visit and 
go beyond the river Seine and the lights in the Saint-Germain 
to visit this wonderful place while you meet welcoming people 
and very generous people. They look like what French is now--
French society has actually always been, which is multicultural 
with a lot of diversity. That's not what is being shown in the 
television or in the political scene or any other public place. 
But that's the reality of what France is and has been for 
decades and century, actually, because there is and there has 
always been diversity in the French population.
    Nowadays, it's around 8 [percent] to 9 percent of the 
French population that were born foreign--in a foreign country, 
which is the definition of immigrants by the French Government. 
It's, roughly, 6 million people. It's a very stable figure, and 
out of those people considered immigrants in France 42 
[percent] come from Africa and 37 [percent] from Europe.
    You have religious diversity that has also always existed 
in France. The majority of French people declare themselves to 
be Christian, around 60 percent. Thirty percent are without 
religion. Six [percent] to seven percent are Muslims. One 
percent, roughly, are Jewish and two [percent] to three 
[percent] don't belong to any faith.
    The problem in France so is not about diversity or 
discovering this diversity. It's always been there. The problem 
is diversity in France is used as a term that only makes sense 
in a society where groups of body have been marked as 
``others'' for a long time systematically and, therefore, 
excluded.
    It is only because the society has delusioned itself as 
homogenous that it is--it has to rethink itself as diverse. 
Europe and France has produced hegemonic ideologies aimed at 
justifying--[inaudible]--of goods, the restriction of cultures, 
enslavement of people, systematic oppression. And although this 
has been documented in numerous scientific researches, French 
Governments have successively failed to acknowledge what this 
tradition of marking people as ``others'' has for consequences.
    There's an extreme control of the semantics when talking 
about discrimination and the refusal to see racism as a power 
relation--a matter of domination--the refusal to talk about 
race relations, the debate about--around the wording, to talk 
about Islamophobia or anti-Muslim racism, and the continuous 
talk and countertalk about anti-white racism.
    Recently, we had a media frenzy when the world-famous 
Lillian Thuram, who is a 1998 soccer world champion--is a very 
esteemed figure--it's a black man, and he has been talking 
about racism in sport, in football. And he was denouncing white 
supremacy and is being attacked by some media and sport 
experts, saying that it was--when he denounced white supremacy 
philosophy, that it was anti-white racists and all talk, rather 
than focusing on what black football players are being abused 
and called names on the field, rather than confronting that it 
was about accusing Lillian Thuram, who has--who has spent 
decades fighting against racism.
    This is--this shows a small example among many how the 
whole situation is used against the very people who are victims 
of racism in France.
    The refusal to recognize the numerous historically produced 
discriminations impacted people living in France has also led 
French Governments to be quite reluctant in implementing any 
real policy progress in matters of nondiscrimination. So the 
notion of diversity that is politically implemented is 
therefore largely a conditional one.
    Diversity is a question of public image, having a photo of 
people read as diverse. Diversity is a question of integration. 
The persons read of diverse are to be accepted, make themselves 
good enough, respectable enough in order to make it into the 
preexisting space, but the space doesn't have to change. And 
the result of that historical and political and also economic 
power relation is that we as a society have failed again and 
again to fight systemic discrimination.
    We have now numerous reports from esteemed body like the 
National Advisory Commission on Human Rights or the Right 
Defenders that have showed how people are victim of systemic 
discrimination. In 2017, 1.1 million people were a victim of 
racist or xenophobic attacks, according to the annual report of 
the National Advisory Commission on Human Rights in France. Out 
of those, only 70 percent complaints of racist abuse and 2 
percent of racist violence had been filed, and this under 
declaration is due to the justice system failing actually to 
serve justice for those victims or the police refusing to take 
complaints. So there is massive under-declaration of those 
facts.
    But the very facts remain. Sixty-point-seven percent of 
women and forty-seven-point-six percent of men perceived as 
blacks, Arabs, or Asian declare being discriminated against in 
the professional world in the access of employment as well in 
the evolution of their career, according to a report by the 
Rights Defenders, which is an independent administrative 
authority working on those issue[s]. In another poll, 80 
percent of young people declaring themselves to be black or 
Arab have been stopped for identity control by the police in 
the last 5 years, whereas 80 percent of the person declaring 
themselves white were not submitted to such control.
    We have witnessed an increasing in--rather than addressing 
the issue--the failure kept happening. And I wanted to focus on 
two issues: the way the government policies have actually 
failed the people and increased racism and xenophobia, the 
anti-migrant policies implemented over the past decades.
    For instance, the European country that has the most 
recourse to the detention of migrant people, 45-8051 people are 
in detention--were in detention in 2018, and those detentions 
include families with children, in a situation so bad that even 
local associations and support groups have decided not to get 
into those detention center any more in order to protest 
against the way things have been happening.
    The other issue I wanted to point out is about police 
brutality. There has been, over the course of 10 years, 47 
unarmed men have died as a result of police intervention, due 
to racially based stoppages or interrogation. Out of all those 
cases, no police officer involved have ever been imprisoned.
    Ms. Moore. That sounds familiar.
    Ms. Obono. Yes. And despite European-level institutions 
condemning France on those very issue of the way the police use 
lethal immobilization techniques in order to arrest people that 
are not even accused of anything, just to search them, or the 
way they've been using weapons. And what used to be focused on 
people of color in the suburbs for years has been now used with 
a wider range of people, especially in the recent social 
movement. So we see how first targeting a specific sector of 
the population and then it's spread to the entire situation.
    So there have been on this issue in particular--and I 
wanted to end on that because that's where the social movement 
and people have been fighting back a lot over the past years. 
There have been movement to reclaim--ask for justice for 
people, young people--young black people who've been--died 
being arrested by the police. People like family members and 
especially sisters and mothers have been standing for justice--
--
    Ms. Moore. We're going to make sure that we have some 
questions on that because I'm going to cut you off now because 
we want to hear from the Honorable Monsieur Olivier Serva, who 
is the president of the delegation of French overseas 
territories in the French Parliament. And we started 10 minutes 
late so we're going to go over a little bit. We promised to get 
people out of here at noon.
    But we welcome your translator, Monsieur Olivier, and we 
look forward to your remarks, and then that'll give us a couple 
of minutes to ask you some questions. I have some questions 
that I really want to direct toward all of you on the panel.
    So, Monsieur Olivier, you're on.

          OLIVIER SERVA, MEMBER OF PARLIAMENT, FRANCE

    Mr. Serva. Thank you. I would like to speak a few words 
first on this day, September the 11th----
    Ms. Moore. Yes.
    Mr. Serva. ----which is not ordinary. We know that it's a 
day of grief for the United States----
    Ms. Moore. Thank you.
    Mr. Serva. ----but also for the democratic and civilized 
humanity. Let me thank you for receiving us on this special day 
of remembrance, and be assured of the solidarity of countries 
of the European Union and the Caribbean world. Thank you.
    To fight against all form of discrimination, the 
persistence of some form of discrimination against minorities 
is a matter of concern in France, whether it concerns European 
countries or French overseas territories. Given my experience 
as a member of the French Parliament representing my island, 
Guadeloupe, I can bring my testimony relating to French 
overseas territories.
    The delegation for French overseas territories within the 
French National Assembly, which I head, has been addressing 
this important issue twice since the beginning of my presidency 
in 2017. The last report was published in March 2019. This 
report highlights the difficulties related to the achievement 
of real equality between minorities and the rest of the 
population.
    In most French overseas territories, economic systems keep 
suffering from many obstacle[s]. A significant socioeconomic 
gap has widened through the years with European countries. On 
top of arrayed economic and social precariousness, one can also 
add the consequences of global warming--hurricanes, tropical 
storms, et cetera--as well as the difficulties related to 
access to housing, most of the time degraded.
    Inequalities in access to training led to educational 
inequalities. Most of the young people from French overseas 
territories have to travel to pursue their higher education in 
Europe. For those who do not have the opportunity to leave, for 
a student the result is a lack of motivation and high dropout 
rates at the local level above the national average for 
minorities. Less effective training at the local level also 
result in inequalities in access to right and to information.
    Furthermore, there are inequalities of access to health for 
those living in the French overseas territories. The access to 
hospitals' care is most of the time failing, as it is usually 
limited to the main city. The organization of the territory is 
not homogenous, even though the French overseas territories 
need to deal with diseases such as chikungunya, Zika, or dengue 
fever, et cetera. This often result[s] in lower life 
expectancies than the national average.
    Every day, discrimination is insidious, as it often hides 
in the details. I will back my argument with three example. 
Bank domiciliation--a person whose bank account is located in a 
French overseas territory does not have the same right as a 
person whose bank account is in mainland France. For instance, 
if my bank account is in Guadeloupe and my child is going to 
mainland France to study, I cannot provide a guarantee for a 
loan or a lease for my child.
    Social security registration is also much more difficult at 
the administrative level for people coming from these areas of 
the world.
    Finally, the right for civil servant--example, teachers--to 
transfer to a French overseas territory is much more difficult 
to obtain, given the small number of places available overseas.
    To face these problems, the delegation of French overseas 
territories advocates for a number of measures to fight all 
forms of discrimination, such as to enhance the teaching of the 
history of slavery on the French overseas territories, to 
improve the visibility of minorities in the French media, to 
improve statistical tools to have a better understanding of the 
minority and their problem of discrimination, and the remote 
areas of the French overseas territories to develop public 
services such as health care or education services, to help our 
young students to stay in their territories to study for higher 
education. If they have to go to mainland France to study, we 
need to help them come back home to work and develop our 
territories and, by doing this, to fight against the aging of 
the population.
    I'm fully aware that these measures have two limits. First, 
they face budgetary restrictions as most of them are expensive. 
Then, they face a form of indifference from most of the French 
citizens. On that particular point, we can all work and use our 
strength and power as political leaders to fight all forms of 
discrimination against minorities.
    This wonderful event that is the Black Caucus is a perfect 
proof.
    Thank you.
    Ms. Moore. Wow. This has really been a great day. My name, 
again, is Gwen Moore. I'm a Helsinki Commissioner and I'm here 
with my good friend. Mr. Emmanuel Cleaver is also. I have a 
question, very quickly, before I close out and perhaps give Mr. 
Cleaver an opportunity to ask questions. Very interested in the 
French delegation.
    You know, France wants--it is very akin to the notion that 
you want to protect the European way of life to talk about 
egalite, fraternite in France where no one can wear the hijab, 
where they don't get data and statistics on race, which I'm 
curious as to how you have so many data and statistics on race 
since France refuses to allow you to gather those data.
    And, is that sort of a veil for protecting against those 
accusations of racism and discrimination? The fact that you 
can't really prove racial discrimination or there's no way to 
say you're not hiring black people? I'm just really--I've been 
waiting on you to get on this panel to respond to that inquiry.
    Ms. Obono. So, yes, I agree with my colleagues. All of them 
have pointed out the lack of statistics and in order to 
actually treat the problem at the--at the roots. There have 
been some researchers--not enough, and that's one of the 
problem--and what they use are the immigrant backgrounds and 
the nationality of the parents and the grandparents and that is 
how they trace back the ethnicity of the people based on that 
familial history.
    There's a very important study, just one that's been made 
on that, and that showed the discrimination against people who 
are now French citizens but whose parents were born in foreign 
countries and from former colonial countries. And so the 
figures are there. Not enough, and that's why we need more 
research and money put into that, and especially to have a more 
precise idea of the intersection of oppression and when you 
talk about black women from immigrant backgrounds who face 
specific discrimination, especially on the economic level. So, 
I think it's part of the French ideology of the republic being 
one and only, and not seeing----
    Ms. Moore. So is there no chance that you could 
legislatively get the government to officially collect data? 
You've got a census coming up, right, where you count the 
people. Do you count people every 10 years like we do?
    Ms. Obono. There's a census, but it's not based on the same 
kind of statistic. We don't have race statistics in France. 
It's----
    Ms. Moore. I know, but is it possible to ever change that?
    Ms. Obono. I think it will be--[laughs]--maybe Olivier will 
answer because he's part of the majority.
    Ms. Moore. I mean, is that a problem that you don't collect 
data?
    Ms. Obono. Yes, it will be--I think it will be a very 
tricky, tricky debate. I don't think it--we are there yet.
    Ms. Moore. Honorable Olivier?
    Ms. Obono. We are not there yet.
    Mr. Serva. [Through interpreter.] I'm very happy to be here 
today.
    Ms. Moore. Mmm hmm. Okay. You're going to go to Black 
Caucus. Yes.
    Mr. Serva. [Through interpreter.] Because you here in the 
United States, you have elected a president of color so you are 
very forward--a forward country.
    We want, just like you, to have policies with negative 
quotas of discriminations. Currently in France, for the reasons 
we talked about, there is a form--there is a huge hypocrisy 
because we talked--we talk about equality and fraternity. We 
want more diversity everywhere and especially in the forms of 
powers. Currently, we have trouble----
    Ms. Moore. You want to be in the majority. [Laughs.] You 
can introduce that. [Laughs.]
    Mr. Serva. [Through interpreter.] That's why I'm very happy 
we agree on that. We have to----
    Ms. Moore. Black president.
    Mr. Serva. [Through interpreter.] ----do the same as you 
and elect a president of color.
    Ms. Moore. That's right. I heard. I understand. I just--I'm 
ready. [Laughter.] Okay. I did have a question. Listen, I just 
want to, before I turn things over to my colleague here, just 
say I heard everything everybody said. I was so happy to have 
Romeo Franz from Germany--the plight of the 12 million Roma in 
Europe. Dr. Pierrette Herzberger-Fofana of--the co-president of 
the European Parliament. I did not know that black people were 
German--black Germans were victims of the Holocaust. I did not, 
that's not part of the history and if I don't know they don't 
know either, right. That's what your whole educational thrust 
has been.
    I really appreciated hearing from Evin Incir about 
inequality being the thing we have to tackle to get rid of 
racism. I'm also impressed by Alfiaz Vaiya, coordinator of the 
European Parliament, who talked about the--really, the capacity 
to deal with defining speech that's different. Hate speech and 
free speech are not the same thing, and that might be something 
that we need to look at in terms of reining in this notion that 
you can just say anything when we know you can't scream fire in 
a theater. So we might want to take that up.
    Really appreciate you, Honorable Daniele Obono, for your 
work and your words--Honorable Olivier and Samira Rafaela, a 
very old lady, who said that the antidote for racism is 
community engagement. So I have really taken in a lot and I 
want you to know that having come across the pond to visit with 
us has been worth it for me.
    I just want to yield now to my colleague, another 
commissioner--Helsinki Commissioner--Mr. Cleaver.
    Mr. Cleaver. Thank you, Madam Chair, and I really 
appreciate you calling this meeting and I have co-signed what 
our chair has said in thanking you for your visit and we 
appreciate it very much. I just have one question. I'm 
wondering if in Europe, there is name calling for minority 
groups, be they Muslim or black or African or Caribbean.
    If you look at history, in order to do damage to people 
first you--if you want to turn society against them to do 
damage--the first thing you do is dehumanize them. In Rwanda, 
in order to kill a million Tutsis, they became roaches. If you 
want to enslave people or to do what happened to indigenous 
people in this country, became savages or a Vietnamese became a 
gook.
    Jewish people were supposed to be less human and more 
vicious. And just go all the way through history; you almost--
you need to dehumanize them with something. Does that happen--I 
mean, for example, we had a whole community here in our country 
essentially called vermin, not far from here in Baltimore. So 
is that something that you're hearing in Europe?
    Ms. Appiah. If I may speak.
    Ms. Moore. Yes.
    Ms. Appiah. In Germany, I can definitely say yes. We're 
called monkeys. So, in that form, that's an animal. And, that's 
like the common treatment of being black. Yes, so I can confirm 
that.
    Mr. Cleaver. Yes. Thank you.
    Ms. Biidu. Thank you for this question. I think it's very 
important. Dehumanization is the first step in that triangle of 
hate and that happens to many societies. That's also what we do 
in our monitoring work. We really look at it and it's one of 
the points we perceive as the starting of hate and hate speech 
then. And what happens also is that the bad part of it is that 
when it's internalized by communities themselves.
    So that's really a destructive part of what happens, that 
you think that what the--the ``othering,'' it's something you 
do to yourself and also across each other. So creating unity is 
the best medicine and that's what we really need to do and to 
create a way of seeing the human in the ``other,'' and that's a 
very long process of education.
    If you may allow me, I would like to also react on the 
thing----
    Ms. Moore. You're the only people missing lunch. 
[Laughter.]
    Ms. Biidu. We don't mind. This is an opportunity we don't 
like to miss. As she said about the French example of 
statistic, that's something which is present in--not only in 
France, in many countries across Europe. And sometimes the 
reason why there is no statistics, many times, for example, in 
the Netherlands, it's because we have had this trauma of the 
Holocaust. So, they're saying because we had a good 
registration, that's why that this could happen.
    So, the reason why it's not done is being pointed to that 
past. But we are visible. So it's not something that you need--
not all of us, of course, but many of us are visible. So it's 
very important to stress on a statistic. So that's what we do 
also as ECRI. When we do our country visit, we stress on 
statistics. And also the importance--we have legislation and we 
have the possibility for preferential treatment. It's not 
called affirmative action but preferential treatment, and there 
are steps we should use and we can use.
    The instruments are there but we really need to strategize 
and campaign for them that we use that instrument present to 
really have preferential treatment so that we would reach 
positions which are there for us as well.
    So thank you for this question and reminding each other to 
do what's there.
    Ms. Moore. You guys are so awesome. We're so awesome. I'm 
definitely going to come to Paris and visit. I would love to 
come and--I'm sure Samira is going to get me to Brussels. Who 
was it from Sweden? Okay. My nephew lives in Sweden. He woke up 
one day and asked, ``Why am I colored?'' And so that's how we 
found him. [Laughter.] So, really, we're all in this together 
and I think that there's strength in unity. So let's go eat. 
[Laughter.]
    [Whereupon, at 12:23 p.m., the hearing ended.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


              Prepared Statement of Hon. Alcee L. Hastings

    Good Morning.
    I consider it an honor to serve the global community as 
chair of the U.S. Helsinki Commission and am honored to be 
joined today to assess the state of diversity and inclusion in 
Europe.
    Today's hearing is timely not only because it is taking 
place ahead of the OSCE's annual human rights meeting later 
this month which includes a focus on how European and North 
American governments are responding to hate crimes and bias, 
but also because it is taking place ahead of the European 
Union's first ever Anti-Racism and Diversity week on the heels 
of Roma Week earlier this year.
    I was so pleased to serve as an honorary host last year, of 
Europe's first ever People of African Descent Week (PADWEEK) 
convened in the European Parliament to honor the history and 
contributions of Europe's 15-20 million strong Black 
population, on the occasion of the International Decade for 
People of African descent.
    I am pleased that the Helsinki Commission has been a 
supporter of those initiatives and to be joined here today by 
the new leadership of the European Parliament's Anti-Racism and 
Diversity Intergroup and other European leaders to discuss how 
these and other events will assist in shaping Europe's path 
forward in realizing an inclusive society.
    In addition to our European hearing witnesses, we are also 
joined in the audience by other international delegates from 
Europe and the Western Hemisphere including French 
Parliamentarians Olivier Serva, and Spanish Parliamentarian 
Rita Bosaho. I am so pleased that everyone can be here today 
with us.
    Today's hearing is taking place at a time when we are 
receiving numerous reports from Europe of hate crimes and acts 
of extremism, racial profiling in cities and at borders, and 
discrimination in schools and in the workplace.
    The OSCE has reported close to 6,000 hate crimes in Europe 
over the past year. A recent European Parliament study 
concluded that people from ethnic or racial minorities in the 
EU experience higher risks of economic hardship, poorer quality 
housing, residential segregation, unemployment and assault. The 
individual impact of such disparities was quantifiable in lost 
earnings between 1.8 and 8 billion Euros.
    Americans are also impacted by disparate treatment and 
related violence in Europe. For years we have received reports 
that our diverse military and diplomats serving in Europe, 
students studying abroad, and tourists have all been the 
targets of discrimination from being refused service in 
restaurants to in the worse cases being the tragic victims of a 
hate crime.
    Europe, like the United States, is already diverse. In a 
democracy, ethnicity, skin color, religion, gender--and I could 
go on--should not determine one's access to rights, 
protections, and opportunity. Yet, this is what we are seeing.
    Increasingly citizens in our democracies are turning 
against one another and people from other places simply because 
they look, pray, love, or think differently than someone else. 
It is critical that we reaffirm democratic values by 
challenging rising prejudice and violence with strategies for 
inclusion.
    This is not simply an American or European problem. Whether 
our countries can truly embrace diversity is a litmus test for 
our democracies and the transatlantic relationship.
    BREXIT, counterterrorism cooperation, trade, migration, 
data use and protection--these are all transatlantic issues 
that ultimately impact us all regardless of our differences. 
Ensuring that all voices are represented in policy decisions on 
these issues on both sides of the Atlantic are critical to how 
our nations will move forward.
    Together, our nations can move towards a future in which 
diverse populations are celebrated, guaranteed fundamental 
human rights, and have the opportunity to participate fully in 
our societies. I welcome your testimony on how we might make 
this statement a reality.

             Prepared Statement of Hon. Benjamin L. Cardin

    Good Morning. I am pleased that we are joined today by 
recently elected Members to the European Parliament who are 
leading the Anti-Racism and Diversity Intergroup as well as 
other leaders from across Europe who are committed to 
addressing issues of diversity and inclusion in the OSCE 
region.
    Some years ago, the OSCE was poised to adopt a Ministerial 
Decision to strengthen efforts to combat racism and xenophobia 
that would have furthered North American and European efforts 
to address the problem.
    It didn't happen at that time, but given current events, 
not only is a revival of that agreement needed, but also a 
global effort that capacitates governments, civil society, and 
the private sector to address all forms of prejudice and 
discrimination.
    As our countries become more diverse, the stability of our 
democracies, economies, and security are likewise dependent on 
strengthening policies that support inclusion and capitalize on 
diversity alongside anti-discrimination initiatives.
    It is for this reason that in my capacity as Ranking Member 
of the Helsinki Commission and the OSCE Parliamentary 
Assembly's Special Representative on Anti-Semitism, Racism, and 
Intolerance, I have been working with my colleagues here and 
abroad to address the rise in prejudice, discrimination, and 
related violence we have been witnessing on both sides of the 
Atlantic.
    At the 28th Annual Session on the OSCE Parliamentary 
Assembly in Luxembourg, I hosted an event entitled ``Countering 
Hate: Lessons from the Past, Leadership for the Future,'' where 
parliamentarians from across the 57 North American and European 
countries that make up the OSCE region called for the adoption 
of an OSCE action plan to counter bias and discrimination and 
foster inclusion.
    As part of that event, I was joined by Dr. Rebecca 
Erbelding of the U.S. Holocaust Memorial Museum, who emphasized 
that ``the Holocaust did not appear out of nowhere; in fact, 
the Nazi Party was in power in Germany for eight years before 
mass killing began.'' She highlighted that ``early warning 
signs'' from the rise of populist leaders and simple solutions 
to the demonizing of minorities, propagandizing of hate, and 
the neglect of refugee protections were not adequately 
addressed at the time and ultimately became the factors that 
resulted in genocide.
    Ladies and gentlemen, the warning signs of today are 
painfully explicit and undaunted by our borders. In what 
appears to be a worrying trend, hateful ideologies are becoming 
increasingly prevalent, fueling bias-motivated hate crimes and 
other violence with deadly consequences throughout the region, 
compromising the security of participating States.
    Inspired by the New Zealand Christchurch gunman, the recent 
El Paso gunman targeted persons he perceived to be of 
``Hispanic'' heritage because he believed they were 
``invading'' our country and generally that Whites were being 
replaced globally by other ethnicities.
    The Tree of Life gunman who killed 11 Jewish worshippers in 
a Pittsburgh Synagogue because he believed they were conspiring 
to help Muslim refugees invade our country was also inspired by 
the New Zealand Christchurch gunman and the White nationalist 
who in 2011 murdered close to eighty children at a youth camp 
and other sites in Norway.
    In other connections to Europe, there are reports that the 
Christchurch gunman was funded through Austrian hate 
organizations and covered his weapons with various white-
supremacist and Islamophobic symbols and references, including 
the name of a political candidate in Italy who was sentenced to 
twelve years in prison for shooting 6 African migrants.
    German politician Walter Lubcke was assassinated by a neo-
Nazi at his home in June for his pro-immigrant political 
stance. Law enforcement is now investigating possible ties to a 
larger neo-Nazi network, following German law enforcement's 
2015 unearthing of a neo-Nazi cell that operated for over a 
decade killing close to a dozen people they perceived to be 
migrants.
    You may recall that at the 2017 ``Unite the Right Rally'' 
which resulted in the tragic murder of Heather Heyer and 
injuries of many others by a motor vehicle, White supremacists 
chanted the old Nazi slogan, ``Jews will not replace us.'' The 
Hungarian Prime Minister echoed similar remarks at his 
demography conference last week, while we continue to see 
confederate flags from the United States and Nazi symbols at 
rallies in Poland alongside the scapegoating of LGBT+ 
populations.
    The OSCE Ministerial Council has repeatedly reaffirmed that 
hate crimes pose a threat to the security of individuals and 
society, given their potential to lead to conflict and violence 
on a wider scale. Recent acts of hate crimes and extremism 
attest to this.
    With the approach of the 75th anniversary of the liberation 
of Auschwitz-Birkenau next year, we must not only work towards 
justice for survivors, their families, and other victims of the 
Nazis, but we must once and for all also work to eradicate the 
fallacies of the racial pseudo-science used to justify the 
Holocaust, colonialism, slavery, and other horrific practices 
of dehumanization that continue to fester and divide our 
societies today.

Joint Prepared Statement from Members of the European Parliament (MEPs) 
  Anti-racism and Diversity Intergroup: MEP Dr. Pierrette Herzberger-
 Fofana (Germany), MEP Romeo Franz (Germany), MEP Evin Incir (Sweden), 
                  and MEP Samira Rafaela (Netherlands)

Situation

    In recent years, there has been a rise in far-right, racist 
and xenophobic groups and political parties that have been 
inciting hatred and violence in society. Terrorist attacks, 
murders, psychological violence, violent physical attacks and 
marches by far-right groups have taken place in various EU 
Member States. Far-right groups and individuals belonging to 
far-right groups have targeted minorities such as black 
Europeans/people of African descent, Jews, Muslims, Roma, 
third-country nationals, LGBTI people and persons with 
disabilities.
    There are reports in some Member States of collusion 
between political leaders, political parties and law 
enforcement with far-right groups. There is evidence of 
impunity with far-right groups operating in some Member States. 
There are increasing trends of far-right groups using social 
media and the internet to organise and strategize across the 
European Union. There is a correlation between dissemination of 
hate speech online and a rise in violence, including by far-
right groups and individuals belonging to far-right groups. 
Additionally, there are reports of Member States public 
broadcasting becoming single political party propaganda, which 
often excludes opposition and minority groups from society and 
even incites violence.
    While the EU parliamentary elections in May 2019 did not 
result in a surge for extreme right and nationalist parties. 
This unexpected development can partly be attributed to the 
plethora of mobilisation campaigns throughout Europe, which saw 
the highest voter turnout in 20 years. However, despite several 
positive outcomes, there has been a rise in European 
parliamentarians (MEPs) representing far-right and nationalist 
parties. Looking ahead, MEPs and activists working against 
racism/discrimination will have to mobilise and organise to 
ensure equal treatment and protection for minorities. This will 
require strong organisation and collaboration between the 
various stakeholders given recent events and reports:

Select reports and recent incidents

    <bullet> LTESAT 2018 Europol report recorded a near 
doubling in the number of individuals arrested for right-wing 
extremist offences in 2017.
    <bullet> LSame report stated that there were five foiled, 
failed or completed terrorist attacks attributed to far-right 
individuals in 2017 in the United Kingdom.
    <bullet> LFrench intelligence service has expressed concern 
at the increasing number of members of military and law 
enforcement forces joining far-right groups.
    <bullet> LThe Federal Office for the Protection of the 
Constitution, Germany's domestic intelligence agency, estimates 
there are 24,100 far-right extremists in Germany, with 
approximately 12,000 organized, dangerous, and potentially 
violent.
    <bullet> L2nd June, 2019, German politician Walter Lubcke 
was murdered in Germany.
    <bullet> L2018, France
    -- Five members of the movement Generation Identitaire were 
convicted of incitement to racial and religious hatred.
    -- Individuals linked to far-right groups, including Action 
Francaise, were planning a terrorist attack against a number of 
French politicians and mosques during the 2017 presidential 
elections.
    -- 10 members of the far-right group Action des Forces 
Operationnelles (AFO) were arrested for planning a series of 
attacks targeting members of the Muslim community.
    -- 14 September, 2018, two ex-skinheads were found guilty 
of the murder of Clement Meric, a young student and anti-
fascist activist killed in June 2013.
    -- September, 2018, LGBTQI activist Zak Kostopoulos was 
brutally assassinated in the centre of Athens with one of the 
accused allegedly belong to extreme-right forces.
    -- 2018, Italian man was sentenced to 12 years in prison 
for shooting and wounding six African migrants in a racially 
motivated attack in the central Italian city of Macerata in 
2018.
    -- 19 June, 2017, one person was killed in a terrorist 
attack at Finsbury Park mosque in England.
    -- 16 June 2016, Jo Cox, Member of the UK Parliament, was 
brutally murdered in England.
    -- 2015, several members of the Nordic Resistance Movement 
were convicted for violent attacks on civilians and the police 
leading to the Swedish Government in 2015 to hide the location 
of buildings earmarked for housing refugees.
    -- Pavlos Fyssas was murdered by members of Golden Dawn in 
Greece.
    -- 22 July 2011, 77 people were killed and 151 injured in 
the Norway attacks.

Policy responses

    More measures are needed to prevent, condemn and counter 
hate speech and hate crime including passing legislation such 
as the EU Equal Treatment Directive. Stronger condemnation of 
hate speech and scapegoating by politicians and public 
officials at all levels and on all types of media is needed. 
Additional work with social media companies to counteract the 
spread of racism and xenophobia on the internet, in cooperation 
with the relevant civil society organisations at a national and 
international level is needed.
    More financial support and improved care practises are 
needed for the victims of racist or xenophobic crimes and hate 
crimes, and the protection of all witnesses against the 
perpetrators. More scrutiny of law enforcement and the military 
to ensure that personnel do not engage in any form of racist, 
xenophobic or discriminatory acts needed, and that any such act 
committed is investigated and those responsible are brought to 
justice. Increased cooperation is needed between law 
enforcement, intelligence agencies, the judiciary and civil 
society organisations in the fight against fascism, racism, 
xenophobia and other forms of intolerance. Mandatory, human 
rights-based and service-oriented in-service training to law 
enforcement officers and officials in the judicial system at 
all levels is needed.
    More financial resources for civil society organisations to 
monitor and report hate speech and hate crime in the Member 
States are needed. This includes more protection of community 
groups and civil society organisations that fight against 
racism, xenophobia and other forms of intolerance. Better 
training to those working in public broadcasting and the media 
to raise their awareness about the challenges and 
discrimination faced by the victims of far-right groups would 
also assist as well as better education focused on past history 
to prevent hate crimes from occurring in the future would play 
an important role in educating the younger generations.

              Prepared Statement of Domenica Ghidei Biidu

    The increasing xenophobic populism and hate speech is a 
persisting concern in Europe and one of the most challenging. 
If anything, over the last two or three years, the problem has 
grown, possibly as a result of the multiple crises Europe has 
been facing during several years now: austerity policies, 
migration on a scale that we have not seen in modern history, 
the related challenges of integration and an increasing number 
of terrorist attacks.
    People's fears and uncertainties are instrumentalised by 
nationalistic and xenophobic movements; racist insults and 
xenophobic hate speech have reached unprecedented levels and 
entered in many cases the political mainstream.
    The role of ECRI is of paramount importance. The European 
Commission against Racism and Intolerance (ECRI) was created in 
1993 as an independent human rights monitoring body within the 
Council of Europe. ECRI is entrusted with the task of combating 
racism, racial discrimination, xenophobia, antisemitism and 
intolerance from the perspective of the protection of human 
rights. It is composed of 47 independent experts, one from each 
member State of the Council of Europe, but not representing 
their respective governments. A government proposes a member, 
but final appointment rests with the Council's Committee of 
Ministers. All members come together three times a year for 
plenary sessions in Strasbourg/France at the Council of 
Europe's headquarters, where the ECRI Secretariat is based as 
well.

ECRI's work consists of three pillars:

        -- Country monitoring

        -- Work on general themes through developing so-called 
        General Policy Recommendations (GPRs)

        -- Work with civil society and equality bodies to 
        combat racism and discrimination

    ECRI monitors all member States, which includes regular 
visits--and adopts country reports which analyze the national 
situation as regards to racism and intolerance and analyzes 
racism and racial discrimination through three thematic 
priority areas: (1) Effective equality and access to rights, 
(2) Hate speech and hate-motivated violence, and (3) 
Integration and inclusion, as well as a number of country-
specific issues.
    ECRI adopts General Policy Recommendations--GPRs--in order 
to provide guidance to policy makers, when drawing up national 
strategies and policies for combating racism and racial 
discrimination. Up to now, ECRI has developed a total of 16 
GPRs. They put the various findings and recommendations from 
our country visits into an overall cohesive frame to provide 
advice on various sectors, such as combatting racism in the 
field of employment, education, sports, and policing--and 
increasingly important in the current context of terror attacks 
that occurred in many European countries: combatting racism 
while fighting terrorism.
    It nevertheless bases its work on the European Convention 
on Human Rights--in particular its Article 14 on discrimination 
and Protocol 12 related case-law. ECRI's current challenges in 
the fight against racism and intolerance.
    There are already a number of European and international 
documents concerned with the problems posed by hate speech; 
notably the Article 20(2) of the International Covenant on 
Civil and Political Rights and Article 4 of the International 
Convention on the Elimination of All Forms of Racial 
Discrimination, both of which the USA is also a party to as 
well as Recommendation No. (97) 20 of the Committee of 
Ministers to member states of the Council of Europe, Council 
Framework Decision 2008/913/JHA of the European Union and the 
Rabat Plan of Action.
    ECRI also contributed to these protections by adopting its 
General Policy Recommendation No 15 on Combating Hate Speech 
(GPR 15) in December 2015 which defines a wide range of 
measures. It reflects the different contexts, aims and effects 
of hate speech and provides varying responses including law 
enforcement channels (criminal, civil and administrative law 
sanctions), prevention, self-regulation and counter speech.

The significant elements in GPR 15's definition include:

        -- the advocacy, promotion or incitement, in any form, 
        of the denigration, hatred or vilification of a person 
        or group based on personal characteristics or status, 
        as well as harassment, insult, negative stereotyping 
        stigmatisation or threat on this basis;

        -- forms of expression that incite or are likely to 
        incite acts of violence, intimidation, hostility or 
        discrimination--``race'', colour, language, religion or 
        belief, nationality national or ethnic origin and 
        descent, however, this is a non-exhaustive list of 
        personal characteristics or status. For example, ECRI 
        consider sexual orientation etc.

<bullet> L``Expression'' is understood in GPR 15 to cover 
speech and publications in any form, including through the use 
of electronic media, as well as their dissemination and 
storage. Hate speech can take the form of written or spoken 
words, or other forms such as pictures, signs, symbols, 
paintings, music, plays or videos. It also embraces the use of 
particular conduct, such as gestures, to communicate an idea, 
message or opinion.

Recommendations: What should be done in Europe to combat Racism 
and Intolerance and create an inclusive societies:

    <bullet> LEnsure that robust legislation is in place to 
tackle discrimination at the constitutional level, and civil 
and administrative law and criminal law levels (such as 
recommended in ECRI's GPR No. 7) and apply the legislation 
consistently and systematically.
    <bullet> LEnsure that independent equality bodies, exist 
and function properly to promote equality and prevent 
discrimination, support people exposed to discrimination and 
intolerance and promote diversity and good relations between 
persons belonging to all the different groups in society 
(ECRI's GPR No. 2).
    <bullet> LEstablish diversity, equity & inclusion 
strategies/policies ensuring full access to basic rights such 
as education, employment, health and housing as well as 
language and integration courses, acquisition of legal status, 
participation in public life, and family reunification.
    <bullet> LRecognise that integration of migrants is a two-
way process but the emphasis by States should move from 
``integration'' to ``inclusion.'' Inclusion underlines the need 
for society not only to facilitate the adaptation of the 
migrant to society, but rather also for society to be changed 
in order to be able to fully accept and include the person. 
This can, for example, be facilitated by tolerance programmes 
and intercultural awareness-raising.

    How can the US help Europe in going forward to create 
inclusive societies?
    Even though we acknowledge the dark side of its histories 
of migration and integration, for example, internment of 
Japanese-Americans, genocide of native populations, and 
segregation laws and policy, etc. we are also are inspired by 
American resilience and the opportunities which made it 
possible to create a diverse country and notable successes in 
common living and cultural diversity. This must be preserved 
and further flourished with good examples which will eventually 
inspire the other side of the continent. We recognise the US as 
a partner and peer in our continued efforts to combat racism 
and intolerance and urge the State to:

    <bullet> LEngage in counter populist rhetoric in reaction 
to populism in Europe.
    <bullet> LFoster constructive and peaceful relations 
between the western world and Muslim countries and between 
Muslim countries and Israel.
    <bullet> LCreate guidelines for policies to combat 
discrimination and intolerance like for example: ECRI's GPR No. 
5 on combating intolerance and discrimination against Muslims 
and GPR No. 9 on the fight against antisemitism. GPR No.16 
Safeguarding irregularly present migrants from discrimination; 
GPR 11 Combating racism and racial discrimination in policing; 
GPR 15 Combating Hate Speech.
    <bullet> LSeek an observer status in plenary meetings with 
ECRI, as an opportunity to deepen Transatlantic relationships 
and cooperation.

                   Prepared Statement of Irene Appiah

    Dear Chairman Rep. Hastings, Dear Co-Chairman Sen. Wicker, 
Dear Members of Congress,
    I am deeply honoured to receive the invitation to speak to 
you today and give you a small insight of being an African 
German political leader in the city state called Hamburg, and 
at the same time is a country of Federal Republic of Germany. 
Hamburg with its population of 1.81 (1.841.179) million 
citizens, declares a number of 302,000 (16.2%) migrants with 
foreign nationalities and approx. 631,000 (34%) citizens with 
immigrant backgrounds.
    Out of this 50% of citizens of Non-German origin--and 
please don't get a wrong impression, those numbers do not 
reflect the average German State--People of African Descent, 
who are registered, reach a number of approx. 46.000. Out of 
the 46 tsd, one third have their origin in Ghana, followed by 
Marocco, Tunesia, Nigeria, Togo and so on. Germany in 
comparison to Hamburg counts 511 tsd. (5,1%) citizens who hold 
an African Passport.
    And still People of Colour--mostly Africans--Roma and 
Muslims are most highly confronted with prejudice and 
discrimination. With that being said--I would like to 
concentrate on the time frame since the UN Decade for People of 
African Descent has unfold its effect.
    We have this word in German *Existenzangst* it is a little 
bit difficult to translate into English, however, I am going to 
try . . . it's this fear of disappearing this existential sort 
of social anxiety that has taken over like a virus of the 
mind.** Existenzangst *** has flamed the fires of xenophobic 
violence, discrimination and abuse throughout all of society, 
attacks which had stopped around the early 2000. Because of the 
recent upsurge in migration settlement we are now having a 
return of xenophobicly motivated attacks like we had in the 
early '80s and '90s caused by hatred and ignorance and 
unfounded fears. An increasing number of neo-Nazi groups, who 
feel comfortable in verbalising their ideology, a new tone of 
misanthropic expression in politics which is being reflected in 
rules and regulation and during current elections.
    Cases of violation against black people, whether by police 
or civilians, are noticed and pointed out more recently. Our 
most prominent case: Justice for Oury Jalloh (Dessau), where 
our brother got burned in police custody. Police is claiming 
Jalloh set himself on fire. For over 14 years the community 
kept fighting against the court decisions, taking it to higher 
court levels. Even though many indications prove Jalloh was 
killed, justice has not been served until today.
    In 2017 a Ghanaian Migrant got shot by a young police 
officer in civil in the middle of a lively street at daytime. 
The accusation was the same: Harassment of females. The victim 
survived and the handling of this case is still going on but 
very silenced. Cases like Rita Awour Ojunge (Brandenburg) where 
an asylum seeking mother of two children gets missed and found 
dead three months later in the immediate vicinity of the 
residence. Or a young man decides to go get psychological 
medical help at the University Clinic in Hamburg. For no 
explainable reasons William Tonou-Mbobda is asked to change his 
treatment of medication. He refuses in a mannered way. Next 
thing that happened is a beat down into coma by three in-house 
securities outside the hospital building, where Mbobda was 
having a smoke, witnessed by other patients who became 
traumatised thru this brutal deadly incident.
    Reportedly People of African Descent have close to no 
protection in this field. The institutions will protect their 
people and themselves. The case ``Mboda'' received more 
recognition, because the community was loud and made good use 
of the media. The network of Journalists of African Descent is 
growing and gives minority groups a little more power to 
interact.

Recommendation:

    <bullet> LAll state parties who signed the contract of the 
High Commission of Human Right must declare a commitment to 
take measurements in case disadvantaging gaps can be indicated 
by the UN-Expert working groups.
    <bullet> LThe High Commission must either involve UN-
prosecutors in trials abroad or take these cases to the 
European Court of Human Rights.
    <bullet> LMinority Groups need support to build an owned 
media network with transatlantic connections.

    Dear Member of Congress my closing sentences will be The 
High Commission must find solutions to protect the Human Rights 
of Minority Groups.

                                 <all>





  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe [OSCE].

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
